<html>
<title> - STRENGTHEN AND FORTIFY ENFORCEMENT (SAFE) ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                 ______


 
                  STRENGTHEN AND FORTIFY ENFORCEMENT 
                               (SAFE) ACT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2278

                               __________

                             JUNE 13, 2013

                               __________

                           Serial No. 113-36

                               __________

         Printed for the use of the Committee on the Judiciary






      Available via the World Wide Web: http://judiciary.house.gov

                                ---------------

                  U.S. GOVERNMENT PRINTING OFFICE
81-463 PDF               WASHINGTON : 2013
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; DC area (202)512-1800  Fax:(202)512-2104 Mail:Stop IDCC, Washington,DC 20402-0001





                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                            C O N T E N T S

                              ----------                              

                             JUNE 13, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     6

                               WITNESSES

The Honorable Paul Babeu, Sheriff of Pinal County, Florence, AZ
  Oral Testimony.................................................    10
  Prepared Statement.............................................    12
Chris Crane, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Sam S. Page, Sheriff of Rockingham County, 
  Wentworth, North Carolina
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Jamiel Shaw, Sr., Committee to pass Jamiel'S Law, Los Angeles, CA
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34
The Honorable Randy C. Krantz, Commonwealth's Attorney, Bedford, 
  VA
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38
Sabine A. Durden, mother of Dominic Durden, Moreno Valley, CA
  Oral Testimony.................................................    42
  Prepared Statement.............................................    45
Karen C. Tumlin, Managing Attorney, National Immigration Law 
  Center
  Oral Testimony.................................................    53
  Prepared Statement.............................................    55
Clarissa Martinez-De-Castro, Director of Civic Engagement and 
  Immigration, National Council of La Raza
  Oral Testimony.................................................    65
  Prepared Statement.............................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    85
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................   170
                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

H.R. 2278, the ``Strengthen and Fortify Enforcement (SAFE) Act'' is not 
    reprinted in this hearing record but is on file with the Committee 
    and can be accessed at:

     http://www.gpo.gov/fdsys/pkg/BILLS-113hr2278ih/pdf/BILLS-
113hr2278ih.pdf


             STRENGTHEN AND FORTIFY ENFORCEMENT (SAFE) ACT

                              ----------                              


                        THURSDAY, JUNE 13, 2013

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 2:44 p.m., in room 
2141, Rayburn House Office Building, the Honorable Trey Gowdy 
presiding.
    Present: Representatives Goodlatte, Coble, Smith of Texas, 
Chabot, Bachus, King, Jordan, Poe, Marino, Gowdy, Labrador, 
Holding, Collins, DeSantis, Smith of Missouri, Conyers, Scott, 
Watt, Lofgren, Johnson, Pierluisi, Gutierrez, Richmond, 
DelBene, and Garcia.
    Staff Present: Shelley Husband, Chief of Staff & General 
Counsel; Branden Ritchie, Deputy Chief of Staff and Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; Kelsey Deterding, Clerk; (Minority) Perry 
Applebaum, Minority Staff Director & Chief Counsel; Danielle 
Brown, Parliamentarian; and Tom Jawetz, Counsel.
    Mr. Gowdy. Good afternoon. The Judiciary Committee will 
come to order. Without objection, the Chair is authorized to 
declare recesses of the Committee at any time. We welcome 
everyone to this afternoon's hearing on H.R. 2278, the 
``Strengthen and Fortify Enforcement (SAFE) Act.''*
---------------------------------------------------------------------------
    *The bill, H.R. 2278, the ``Strengthen and Fortify Enforcement 
(SAFE) Act,'' can be accessed at http://www.gpo.gov/fdsys/pkg/BILLS-
113hr2278ih/pdf/BILLS-113hr2278ih.pdf
---------------------------------------------------------------------------
    I will now recognize myself for an opening statement, and 
then the gentleman from Michigan.
    The 19 hijackers involved in the 9/11, 2001, terrorist 
attacks applied for 23 visas and obtained 22. The terrorists 
began the process of obtaining visas almost 2\1/2\ years before 
the attack. More recently, a legal permanent resident and 
naturalized U.S. citizen injured and murdered multiple 
Americans in Boston.
    Abel Arango, a Cuban national, served time in prison for 
armed robbery. He was released from prison in 2004 and was 
supposed to be deported. However, Cuba wouldn't take him back. 
DHS had to release him because of the Supreme Court's decision 
in Zavidas v. Davis. He shot Fort Myers police officer Andrew 
Widman in the face. Officer Widman never even had the 
opportunity to draw his weapon. Husband and father of three 
died at the scene.
    Sixteen-year-old Ashton Cline-McMurray, an American citizen 
who suffered from cerebral palsy, was attacked by 14 gang 
members while walking home from a football game in Suffolk 
County outside of Boston. According to his mother, Sandra 
Hutchinson, they beat him with rungs out of stairs, they beat 
him with a golf club, they stabbed him through his heart, and 
finally through his lungs. He, too, really never had a chance. 
And Ashton's killers pled guilty to lesser charges for 
manslaughter in the second degree murder. One of the 
defendants, Loeun Heng, was recently released back onto the 
streets by the Massachusetts Parole Board. Heng, like thousands 
of other criminal aliens in recent years, initially could not 
be deported because his home country refused to take him back--
again because of the Supreme Court's decision in Zavidas v. 
Davis. Heng wound up back on the streets living here in the 
United States.
    Recent events like these underscore the need for Congress 
to act, and compel this and future Administrations to provide 
for public safety first and foremost. We must strengthen and 
improve our immigration enforcement system not just at the 
border, but within the interior of the United States.
    The SAFE Act was introduced to remedy this current 
unacceptable state of affairs. The bill, in my judgement, will 
keep us safe in numerous ways. First, it fulfills the intent of 
the Homeland Security Act of 2002, which authorized the 
placement of Department of Homeland Security Visa Security 
Units at highest-risk U.S. consular posts. This was an effort 
to address lapses in the current system, increase scrutiny of 
visa issuance, and prevent terrorists from gaining access to 
the United States.
    Unfortunately, since 2002 neither the State Department nor 
DHS has put a high priority on the establishment of Visa 
Security Units. Just recently, State Department denied DHS' 
request to set up a post in Turkey. Visa Security Units exist 
in only 14 countries. Meanwhile, close to 50 countries have 
been designated as highest risk.
    In addition to making it harder for terrorists to enter, 
the SAFE Act allows U.S. Officials to more easily remove 
terrorists and other national security threats. The bill closes 
loopholes and allows terrorists to be removed from American 
soil without threatening the disclosure of intelligence sources 
and methods. Of note, the bill bars foreign terrorists or 
immigrants who threaten national security from receiving 
immigration benefits such as naturalization and discretionary 
relief from removal. The bill also prohibits immigration 
benefits from being provided to immigrants until a background 
check is successfully passed.
    The SAFE Act also addresses criminal threats. According to 
recent data provided by Immigration and Customs Enforcement, 
nearly 4,000 dangerous immigrant criminals have been released 
in just about every year since 2008 because the Zavidas 
decision requires DHS to release all aliens with final orders 
of removal where their native country refuses to take them 
back. Nearly 1,700 convicted criminals have been released thus 
far this year alone. This is unacceptable and is not consistent 
with the government's preeminent obligation to provide for 
public safety. H.R. 2278 provides the statutory basis for DHS 
to detain, as long as necessary, specified dangerous aliens 
under orders of removal who cannot be removed. This provision 
is based on legislation that former Chairman Lamar Smith 
previously introduced.
    In addition to these provisions, the SAFE Act ensures 
aliens convicted of sexual abuse of children, manslaughter, two 
or more convictions for driving under influence, or failing to 
register as a child sex offender or any kind of sex offender 
are removable. It expands the range of conduct for which an 
alien can be removed pertaining to espionage and exploiting 
sensitive information.
    The bill makes alien members of violent criminal street 
gangs removable. This provision is based on legislation 
introduced previously by the gentleman from Virginia, Randy 
Forbes. The SAFE Act also provides ICE agents with the tools 
they need do their job and the protections needed to keep them 
safe.
    So I look forward to today's hearing. I especially look 
forward to hearing the testimony of today's witnesses whose 
family members were taken from them because of our current 
system's failure at multiple levels. Public safety and national 
security must be the twin overarching pillars of any 
immigration reform system.
    And with that, I would recognize the gentleman from 
Michigan, the Ranking Member of the full Committee, Mr. 
Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy.
    We gather here for the tenth hearing on immigration, and I 
don't say that critically, because this subject is important. 
And I join in welcoming all two, four, six, eight witnesses, 
but I particularly single out Ms. Tumlin, attorney Tumlin, and 
the representative from the National Council of La Raza, 
Clarissa Martinez-De-Castro. Welcome.
    We've held legislative hearings on E-Verify, we've had 
hearings on agriculture, the agricultural guest worker bill, 
and today's hearing is an enforcement-only bill. Now, I respect 
the efforts of my colleagues that are putting such emphasis on 
enforcement. But H.R. 2278 is not the right bill for this 
moment, and I will explain what I mean by that, because it's 
coming one day before the first hearing of our House Judiciary 
bipartisan task force on over-criminalization. And here's what 
we're doing the day before we have the task force meeting.
    It's alarming that this bill would turn millions of 
undocumented immigrants into criminals overnight. It's not only 
terrible politics, but it's inhumane policy as well. I was 
hoping that we had turned a corner on this flawed approach 
because we've tried it before.
    Moreover the bill's complete and unchecked delegation of 
immigration enforcement authority to local police, State 
enforcement agencies will endanger public safety, it will 
increase racial profiling, and infringe basic due process 
rights.
    Put simply, it's a dangerous approach to a complicated 
problem and it will harm communities all around the country. 
This bill makes it a crime, potentially a felony, to be an 
undocumented immigrant in this country. And this is not the 
first time that there have been attempts to turn millions of 
undocumented immigrants into criminals. The last time was in 
2005, bill number H.R. 4437, and it spurred massive public 
protests around the country. This bill will do the same thing, 
but in a more subtle way, and by granting States and localities 
total authority to pass their own immigration laws, something 
that even the bill I referred to in 2005 didn't do, it will put 
undocumented immigrants all around the country in even greater 
danger.
    The bill simply turns every police officer in the country 
into an immigration agent. In the eyes of many communities that 
means the public safety mission will become a distant second.
    Let's be clear, this bill will make our communities less 
safe. Study after study has shown that when police become 
immigration agents, crime victims and witnesses don't come 
forward, crimes go unreported and unresolved and unsolved, and 
public safety decreases.
    We know that this legislation would lead to widespread 
racial profiling and unconstitutional arrests of U.S. citizens 
and immigrants alike. How do we know this? Because we've seen 
it in jurisdiction after jurisdiction around the country that 
have entered into these 287(g) agreements with the Department 
of Homeland Security. So what does the bill do? Rather than 
improve on current practice and require more oversight over 
these 287(g) agreements, it grants total enforcement authority 
with no checks at all.
    And so I will put the rest of my statement in the record. I 
thank the Chairman for his indulgence in giving me additional 
time.*
---------------------------------------------------------------------------
    *The information referred to was not available at the time this 
hearing record was finalized, September 30, 2013.
---------------------------------------------------------------------------
    Mr. Gowdy. I thank the gentleman from Michigan.
    The Chair would now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I apologize for not 
being here in a timely fashion myself, but we are hard at work 
on this immigration issue, in many conversations, and that 
detained me from getting back here.
    Successful immigration reform must address effective 
interior enforcement. This is an integral piece of the puzzle. 
We can't just be fixated on securing the border, which 
undoubtedly is an issue of paramount concern. We must focus on 
interior enforcement, or more precisely, what to do with 
unlawful immigrants who make it past the border and legal 
immigrants who violate the terms of their visas and thus become 
unlawfully present in the United States.
    Any real immigration reform effort must guarantee that our 
laws be enforced following a legalization program. This is 
required in order to ensure that future generations do not have 
to deal with once again legalizing millions more people. 
Interior enforcement of our immigration laws is critical to the 
success of our immigration system.
    Unfortunately, the Senate bill actually weakens interior 
enforcement in many areas or is simply ineffectual. The Senate 
bill allows aggravated felons who are currently subject to 
mandatory detention to be released in the care of advocacy 
organizations. The Senate bill provides an unworkable framework 
for deporting gang members. The Senate bill directs DHS to 
ignore criminal convictions under State laws for crimes such as 
human smuggling, harboring, trafficking, and gang crimes when 
adjudicating applications for legalization.
    Today we turn to H.R. 2278, the immigration enforcement 
bill introduced by Trey Gowdy, Chairman of Subcommittee on 
Immigration and Border Security. Mr. Gowdy's legislation 
actually strengthens Federal immigration enforcement. One 
reason why our immigration system is broken today is because 
the present and past Administrations have largely ignored the 
enforcement of our immigration laws. If we want to avoid the 
mistakes of the past we cannot allow the President to continue 
shutting down Federal immigration enforcement efforts 
unilaterally. The SAFE Act will not permit that to happen.
    I remain concerned that whatever enforcement provisions 
Congress passes will be subject to implementation by the 
current Administration, which fails to enforce the laws already 
on the books. DHS has released thousands of illegal and 
criminal immigrant detainees while providing ever-changing 
numbers to Congress regarding the same. DHS is forbidding ICE 
officers from enforcing the laws they are bound to uphold. A 
Federal judge has already ruled DHS' actions are likely in 
violation of Federal law. DHS is placing whole classes of 
unlawful immigrants in enforcement-free zones. DHS claims to be 
removing more aliens than any other Administration, but has to 
generate bogus numbers in order to do so.
    Ultimately, the American people have little trust that an 
Administration which has not enforced the law in the past will 
do so in the future. That is why real immigration reform needs 
to have mechanisms to ensure that the President cannot simply 
turn off the switch on immigration enforcement.
    Mr. Gowdy's bill contains such a mechanism. Not only does 
the bill strengthen immigration enforcement by giving the 
Federal Government the tools it needs to enforce our laws, but 
it also ensures that where the Federal Government fails to act 
States can pick up the slack. Pursuant to the SAFE Act, States 
and localities are provided with specific congressional 
authorization to assist in the enforcement of Federal 
immigration law. States and localities can also enact and 
enforce their own immigration laws as long as they are 
consistent with Federal law.
    The SAFE Act shows how to avoid the mistakes of the past 
with regard to immigration law enforcement, especially the 1986 
immigration law. The bill expands the types of serious criminal 
activity for which we can remove aliens, including criminal 
gang membership, drunk driving, manslaughter, rape, and failure 
to register as a sex offender. The bill ensures these 
individuals cannot take advantage of our generous immigration 
laws.
    In addition to criminal provisions, the bill strengthens 
Federal law to make it more difficult for foreign terrorists 
and other foreign nationals who pose national security concerns 
to enter and remain in the United States. Of note, the bill 
bars foreign terrorists or aliens who threaten national 
security from receiving immigration benefits, such as 
naturalization and discretionary relief from removal. Such 
provisions are particularly relevant following the Boston 
bombing, where naturalized aliens killed, maimed, and injured 
Americans. Under the bill, no immigration benefits can be 
provided to immigrants until all required background and 
security checks are completed, another item that the Senate 
bill fails to include. Rather, the Senate bill actually 
authorizes the Secretary to waive background checks.
    Mr. Gowdy's bill also improves our Nation's first line of 
defense, the visa issuance process. Additionally, the SAFE Act 
lives up to its name and provides much-needed assistance to 
help U.S. Immigration and Customs Enforcement officers carry 
out their jobs of enforcing Federal immigration laws while 
keeping them safe. Not only does the bill allow local law 
enforcement officials already working in their communities to 
pitch in to enforce our laws, but the bill also strengthens 
national security and protects our communities from those who 
wish to cause us harm. The SAFE Act provides a robust interior 
enforcement strategy that will maintain the integrity of our 
system for the long term.
    I look forward to hearing from all of our witnesses today, 
and I thank Chairman Gowdy for introducing this game-changing 
legislation.
    Mr. Gowdy. Thank the gentleman from Virginia.
    The Chair would recognize the gentlelady from California, 
the Ranking Member of the Subcommittee, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Over the past 6 months this Committee has engaged in a 
series of informative and largely civil discussions regarding 
immigration law. With few exceptions, each of the nine 
immigration hearings thus far have shown that Members of this 
Committee recognize that our immigration system is broken and 
that it must be fixed for America's businesses and families. 
Most of the Members have recognized at one time or another that 
deporting 11 million undocumented immigrants is not realistic 
and it would tear parents away from children, separate spouses, 
leave gaping holes in businesses and communities across the 
country.
    That's why today's hearing on H.R. 2278 is so 
disappointing. Portions of the bill should be familiar to the 
Committee because they draw heavily upon bills that we 
considered in the 112th Congress. Provisions in the bill, for 
example, would allow people to be detained indefinitely, 
perhaps permanently, as well as deported based on nothing but 
the discretionary decision of the Secretary of Homeland 
Security without due process. I am confident that some of this 
language would never survive constitutional scrutiny.
    The bill troubles me more, however, because of how similar 
it is to a bill we considered in the 109th Congress, H.R. 4437. 
This bill contains many provisions from that bill, including 
provisions that essentially turn all undocumented immigrants in 
the country, whether they crossed the border or overstayed a 
visa, into criminals and that say that every day they stay in 
the U.S. they continue to commit a crime. Under this bill, 
every day an undocumented father or mother stays in this 
country to feed and care for a child he or she would be 
committing a crime. Under this bill, their family members may 
be committing criminal acts simply for living with them or 
driving them to the doctor.
    This bill then goes further than H.R. 4437 by unleashing 
the States to enact similar laws and by authorizing State and 
local officers across the country to enforce immigration laws. 
Every beat cop would have the power to apprehend, arrest, and 
detain a person based on mere suspicion that the person might 
be unlawfully here, and the States could put them in jail 
simply for being here.
    It's impossible to read Title 1 without thinking of all the 
lessons we have learned in recent years about what happens when 
local police officers are turned into Federal immigration 
agents. We now know that entrusting immigration enforcement to 
local police damages communities policing practices and leaves 
communities less safe. That's because it breeds distrust in the 
community from U.S. citizens, legal residents, and undocumented 
persons alike.
    For years we've heard this from major organizations such as 
the Police Foundation, the International Association of Chiefs 
of Police, and the Major Cities Chiefs Association. Salt Lake 
City Police Chief Chris Burbank testified at the hearing last 
year that placing local law enforcement officers in the 
position of immigration agents undermines the trust and 
cooperation essential to successful community-oriented 
policing.
    Recently we heard it from a survey of Latinos themselves. 
Forty-five percent of those surveyed said they are now less 
likely to contact the police if they are the victim of a crime 
out of fear that officers will inquire about their immigration 
status or the immigration status of people they know. Seven out 
of 10 respondents who are undocumented said the same thing.
    When victims of crime and people who witness crime are 
afraid to contact the police, crimes go unsolved. When crimes 
go unsolved, communities lose faith in the ability of police to 
keep them safe. Rather than making our communities safer, 
something that the bill's title purports to do, this bill would 
decrease public safety.
    We also now know that placing immigration enforcement 
authority in the hands of States and localities results in 
unconstitutional racial profiling and prolonged unlawful 
detention. The poster child for this bad behavior is Maricopa 
County Joe Arpaio, the self-styled toughest sheriff in America. 
Just last month a Federal judge ruled that Arpaio's office 
engaged in a pattern of unconstitutional racial profiling and 
unlawful detentions while participating in the 287(g) agreement 
with the Federal Government and in the enforcement of Arizona's 
owns immigration laws.
    And Arpaio is not alone. Last year the Justice Department 
concluded that Alamance County Sheriff and his deputies in 
North Carolina engaged in routine discrimination against 
Latinos, which included illegal stops, detentions, and arrests 
without probable cause. The Justice Department also entered 
into settlement agreements with East Haven, Connecticut, 
following an investigation into widespread racial 
discrimination and abuse against Latino residents. The case 
also involved the Federal criminal arrest of police officers on 
charges such as excessive force, false arrest, obstruction, and 
conspiracy.
    Immigration law is complex. Even Federal immigration 
officers highly trained and with decades of experience in 
immigration law sometimes make mistakes leading to the 
detention and removal of U.S. citizens and lawful permanent 
residents. Imagine what will happen when we turn over this 
power to people who can't possibly understand the complexities 
of immigration laws, such as the rules surrounding automatic 
acquisition of U.S. citizens, derivative citizenship, 
extensions of stay pending adjudications of petitions and 
applications, withholding of removal, and the list goes on. 
This bill turns a blind eye to these problems, and that is a 
gross understatement.
    We all share the goal of ensuring that immigration laws are 
enforced. Surely we can do improvements. But this system is 
utterly broken and it can't be fully enforced without 
devastating our economy, our businesses, our families, and our 
communities. The approach this bill takes is dangerous and it's 
wrong, and I hope that today's hearing is not a sign of the 
direction in which this Committee is heading, and I yield back.
    Mr. Goodlatte [presiding]. We thank the gentlewoman for her 
statement.
    All other Members' opening statements will be made a part 
of the record. And we now welcome our panel today.
    [Witnesses sworn.]
    Mr. Goodlatte. Thank you very much.
    Let the record reflect that all of the witnesses responded 
in the affirmative.
    And please be seated.
    Sheriff Paul Babeu is an elected official and the chief law 
enforcement officer of Pinal County, Arizona. Sheriff Babeu has 
served as the president of the Arizona Sheriff's Association 
and was named National Sheriff of the Year in 2011 by the 
National Sheriffs' Association. Additionally, Sheriff Babeu 
served his country in the National Guard for 20 years. During 
that time he served a tour in Iraq, as well as a deployment in 
Arizona as part of Operation Jump Start. In 2006 and 2007 he 
worked as the commander of Task Force Yuma supporting the 
United States Border Patrol. Sheriff Babeu earned his master's 
degree in public administration from American International 
College, graduating summa cum laude.
    Mr. Chris Crane currently serves as the president of the 
National Immigration and Customs Enforcement Council 118, 
American Federation of Government Employees. He has worked as 
an immigration enforcement agent for the U.S. Immigration and 
Customs Enforcement at the U.S. Department of Homeland Security 
since 2003. Prior to his service at ICE, Chris served for 11 
years in the United States Marine Corps. He has testified 
before this Committee before.
    Thank you for returning again.
    Sheriff Sam Page is an elected official and the chief law 
enforcement officer of Rockingham County, North Carolina. 
Sheriff Page serves as the--I'm sorry, I think I am stealing 
the thunder of the gentleman from North Carolina, Mr. Coble, 
who asked, and I agreed, and then forgot to recognize him for 
the purpose of acknowledging Mr. Page, Sheriff Page.
    Mr. Coble. Mr. Chairman, you may steal my thunder any time 
you like. But before I introduce Sheriff Page, the case to 
which my friend from California referred earlier in North 
Carolina, I think that's still in litigation. I don't think 
it's been resolved at this point.
    Sheriff Page is serving in his fourth term as high sheriff 
of Rockingham County. In addition to that, he has served on the 
National Sheriffs' Association Border and Immigration Committee 
since 2012. Sheriff Page is a veteran of the U.S. Air Force, 
having served 5 years in the Air Force. He is also a graduate 
of the National Security Institute.
    Sam Page is a law enforcement officer par excellence. I 
don't want to embarrass you, Sam, but I'm going to compliment 
you.
    A friend of mine once asked how well I knew Sam Page. I 
said I know him very well. And my friend said he's a good 
sheriff, but more importantly he's a good man. And I echo that, 
and I am honored to introduce him, Mr. Chairman, to my friends 
on the Judiciary Committee.
    Sam, good to have you and your colleagues with us today. I 
yield back.
    Mr. Goodlatte. And thank you. And I will simply add my 
welcome to that given by the distinguished gentleman from North 
Carolina.
    Mr. Jamiel Shaw is the father of Jamiel Shaw, Jr., a high 
school football star who was murdered by an illegal alien gang 
member. Jamiel Shaw, Jr., was a 17-year-old honor student being 
recruited by schools such as Stanford and Rutgers when his 
future was cut short by a gang member who was in the United 
States illegally. Mr. Shaw has since campaigned for Jamiel's 
Law to be enacted. This law would prevent Los Angeles from 
being a sanctuary city for illegal alien gang members and would 
implement stronger enforcement measures to prevent illegal 
immigration.
    It is my particular pleasure to introduce the Honorable 
Randy C. Krantz, who serves as the elected Commonwealth's 
Attorney for Bedford City, Virginia, a position he has held 
since 1995. He is the Director for the Bedford County Violent 
Crime Response Team, as well as the legal advisor for the 
Bedford Forensic Nurse Program. Additionally, Mr. Krantz is a 
member of the Southern Virginia Internet Crimes Against 
Children Task Force. He earned his undergraduate degree from 
Lynchburg College and his juris doctorate from the University 
of Richmond, as well as an MAR degree from Liberty University, 
and continued his education in my law firm many, many years 
ago, more than 20.
    You're very welcome today, Randy.
    Ms. Sabine Durden is the mother of Dominic Durden, who was 
killed in a vehicle collision with an illegal immigrant. 
Dominic was a dispatcher for the Riverside County Sheriff's 
Department and a licensed pilot. He was killed when he was 
riding his motorcycle to work and was hit by an illegal 
immigrant in a pickup truck who had two drunken driving 
convictions but was not in possession of a driver's license. 
Dominic was Ms. Durden's only child.
    Ms. Karen Tumlin is the managing attorney for the Los 
Angeles office of the National Immigration Law Center. She has 
been with NILC since 2005 and her focus has been on serving 
low-income immigrants. Ms. Tumlin also worked as a research 
associate at the Urban Institute before going to law school, 
where she worked on immigration issues. Additionally, she spent 
a year as a Luce Scholar in Thailand working on a study on 
child trafficking for the United Nations International Labor 
Organization. Ms. Tumlin earned a juris doctorate and a 
master's degree in public policy from the University of 
California at Berkeley.
    Ms. Clarissa Martinez-De-Castro is the director of civic 
engagement and immigration at the National Council of La Raza. 
Ms. Martinez oversees the organization's work to advance NCCR 
immigration priorities, as well as efforts to expand Latino 
policy advocacy and electoral participation. A naturalized 
United States citizen, she is a graduate of Occidental College 
and Harvard's Kennedy School of Government.
    Welcome to each and every one of you. This is a large 
panel. And I want to assure each of you that your written 
statements will be entered into the record in their entirety, 
and I ask that each of you summarize your testimony in 5 
minutes or less. To help you stay within that time, there is a 
timing light on your table. When the light switches from green 
to yellow you will have 1 minute to conclude your testimony. 
When the light turns red it signals that the witness' 5 minutes 
have expired.
    And I want to also note that I have an amendment on the 
floor in the National Defense Authorization Act coming up in a 
little bit and I will have to step out. Chairman Gowdy or 
others will fill the Chair. We will keep the hearing going in a 
smooth fashion. I apologize in advance for not being here for 
all of it, but I will be here for almost all of it, and all of 
your testimony is important to me.
    And we will start with you, Sheriff Babeu. Am I pronouncing 
that correct? Good. Thank you. 

            TESTIMONY OF THE HONORABLE PAUL BABEU, 
             SHERIFF OF PINAL COUNTY, FLORENCE, AZ

    Sheriff Babeu. Sheriff Paul works just as well.
    Thank you, Mr. Chairman and Members, for allowing me to 
testify today. A little bit about Pinal County. We are larger 
geographically than the State of Connecticut. We only have 15 
counties in Arizona. And we're still a rural county, we have 
400,000 residents. And we're a full service law enforcement 
agency, meaning that we're primary responders to the majority 
of the residents of our county.
    We're not on the border. In fact, we're 70 miles north of 
the border. Yet we're the number one pass-through county in the 
United States, over 3,000 counties. How can that be? Well, 
terrain features, the interstates naturally funnel through 
Pinal County on their way to Metro Phoenix and then other 
parts, possibly to your districts and people that you 
represent.
    According to a recent GAO study, says that 56 percent of 
the border is not under operational control. That's a term that 
has been used in the past, a metric, if you will, by the Border 
Patrol. In my opinion and the opinion of most Americans, 44 
percent is a failing grade. America can secure the border if we 
replicate the success of what's been accomplished in the Yuma 
Sector.
    Mr. Chairman, you pointed out in my introduction that I 
served as a commanding officer, as an Army officer for a year 
and a half in Yuma. And I could speak to that experience. 
Essentially what happened there is, of the nine sectors from 
California to Texas, we, in direct support of our heroes in 
Border Patrol, were able to bring a 90 percent reduction in 
illegal entries and drug smuggling in that sector. So I reject 
anybody saying that the border cannot be secured.
    Three key elements in the McCain-Kyl plan, our former 
Senator Kyl from the State of Arizona. I was proud to be the 
prime author of that legislation, and the three key components 
of that was 6,000 armed soldiers, which the Senate bill does 
not have, for a period of 2 years so you can get in sequence to 
the second step, is built and complete a double barrier fence, 
originally authored by former Representative from San Diego 
Rankin--not Rankin--Duncan Hunter. In fact, President Clinton, 
to his great credit, signed that bill. He wanted three barriers 
and he gave him two. And it's not just build a border fence for 
2,000 miles, it's 700 miles of the approximately 2,000-mile 
border. And it's already predetermined area, that high-
trafficked areas and areas where there's built-up or urban 
centers that are there. And you have infrared cameras, cameras, 
lighting, and sensors to detect incursions as well.
    Third, in sequence, is this novel concept of enforcing the 
law. When that happened--and it couldn't get there in the Yuma 
Sector until the first two components were there of the armed 
soldiers and building the infrastructure necessary--and when 
they enforced the law we saw the numbers drop dramatically. So 
that's what's called the proof of concept that should be 
brought to all other sectors.
    I strongly oppose the Senate's--what's referred to as the 
gang of eight plan because they offer all of these other items 
of a path to citizenship prior to ascertaining and guaranteeing 
that the border is secured, that the laws are enforced.
    Secretary Napolitano almost on a daily basis proclaims that 
the U.S.-Mexican border is secured. As part of the legislation, 
why I favor this as opposed to the Senate bill, is the Senate 
allows the Secretary of Homeland Security 6 months to come up 
with a plan to secure the border. My question is, I believe 
that was her job for the last 4\1/2\ years, is secure the 
border. And when you look at numbers of 123,000 illegals that 
have been apprehended where I live in the Tucson Sector, that 
is last year, ladies and gentlemen. And that just reflects 
those who were apprehended, not those who got away or got 
through.
    And last, just over a year ago, our county, Pinal County 
lead the 21-member law enforcement agency effort with the 
largest drug busts in the history of Arizona, $2 billion to $3 
billion, against members of the Sinaloa Cartel, 76 members 
arrested, 108 firearms--not handguns but rifles--and AK-47s. 
And these what in law enforcement we call clues that the border 
is not more secure.
    The Secretary and others point to the dip in the numbers, 
and that is more a reflection of the economy. I am here to 
stand in support of Mr. Gowdy's SAFE Act. And we've seen this 
movie before, in 1986, and if we go down that path it's not 
going to end well and it's going to have more devastating 
effect.
    Thank you for allowing me to speak today.
    Mr. Goodlatte. Thank you, Sheriff Paul.
    [The testimony of Sheriff Babeu follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. And we'll now welcome Mr. Crane.

 TESTIMONY OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
    CUSTOMS ENFORCEMENT COUNCIL 118, AMERICAN FEDERATION OF 
                      GOVERNMENT EMPLOYEES

    Mr. Crane. Good afternoon, Chairman Goodlatte, Ranking 
Member Conyers, and Members of the Committee. We are still 
reading through the SAFE Act, introduced by Congressman Trey 
Gowdy. However, my initial reaction is one of great 
appreciation and support for Congressman Gowdy's efforts. I 
applaud Congressman Gowdy and his staff for creating a bill 
that makes public safety a priority through reforms to 
enforcement.
    Unfortunately, gang of eight legislation currently before 
the Senate reflects an absence of law enforcement input as it 
contains no tangible plan for border security and essentially 
ignores interior enforcement altogether, while simultaneously 
creating a path to citizenship for members of criminal street 
gangs and most other criminal aliens. We hope that members of 
both parties in the House and the Senate will review the 
provisions of the SAFE Act as gang of eight legislation ignores 
interior enforcement and continues practices which have led to 
the Nation's current immigration problems.
    With visa overstays accounting for approximately 40 percent 
of the 11 million aliens currently in the United States 
illegally, S. 744 speaks only of increases to border 
enforcement, not interior enforcement. Investments in border 
security will never address the problem of visa overstays, 
which again account for nearly half of all illegal aliens 
currently in the United States. Investments on the border will 
also do nothing to ensure that everyone who successfully 
crosses the border illegally is apprehended and removed, as 
that is also ICE's interior enforcement mission.
    Since 9/11, the Border Patrol has tripled in size, while 
the interior enforcement component of ICE appears to have 
become smaller. ICE is tasked with apprehending and removing 11 
million illegal aliens in the United States, as well as 30 
million aliens legally in the U.S. who are subject to removal 
for status violations, generally being criminal convictions. In 
short, ICE polices 40 million people in 50 States, Guam, and 
Puerto Rico, with just 5,000 officers, a force half the size of 
the Los Angeles Police Department. Of those 5,000 officers, 
hundreds work as detention guards in detention centers instead 
of performing law enforcement duties due to the elimination of 
detention guard positions during transition from INS to DHS. 
The transition also split ICE's 5,000 officers into two 
separate with two different arrest authorities, thereby 
crippling the agency's ability to use its handful of officers 
across the full spectrum of immigration enforcement.
    The gang of eight's so-called comprehensive reform ignores 
red flags at ICE and does nothing to reform interior 
enforcement in an agency tasked with that mission. The SAFE 
Act, however, takes aggressive steps to fix these problems. It 
adds additional officer positions, establishes the same arrest 
authorities for all officers, takes law enforcement agents out 
of detention centers, replacing them with detention guards, 
provides additional ICE trial attorneys, support staff, and 
much-needed protective equipment for officer and agent who face 
growing criminal populations that are increasingly violent and 
confrontational.
    In order to combat the criminal alien problem within the 
United States and keep dangerous criminals off the streets 
drafters, of the SAFE Act clearly reviewed current immigration 
laws and identified areas of concern in an effort to eliminate 
loopholes for criminals and keep communities safe. The SAFE Act 
adds upon aggravated felony charges involving the sexual abuse 
of children, homicide, manslaughter, child pornography, 
firearms offenses, passport fraud, stalking, and child abuse. 
It makes gang members deportable, detains dangerous criminal 
aliens that we can't deport, and expands on charges for 
espionage, crimes again government, and other criminal 
activities. It provides support for local law enforcement and 
legally strengthens ICE detainers, keeping criminals off the 
street.
    In conclusion, it is our opinion that the approach taken in 
the SAFE Act is the approach needed to fix our broken 
immigration system. To effectively address the thousands of 
concerns throughout our Nation's broken immigration system, we 
must take a diligent and systematic approach of reviewing 
current laws, practices, and resources to prevent repeating the 
mistakes that currently exist and ensure that future laws can 
be effectively implemented and enforced.
    Thank you, and that concludes my testimony.
    Mr. Goodlatte. Thank you, Mr. Crane.
    [The testimony of Mr. Crane follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Sheriff Page, welcome.

 TESTIMONY OF THE HONORABLE SAM S. PAGE, SHERIFF OF ROCKINGHAM 
               COUNTY, WENTWORTH, NORTH CAROLINA

    Sheriff Page. Thank you. Mr. Chair, Co-Chair, and 
distinguished Members of the U.S. House of Representatives 
Judiciary Committee, I gave greetings from Rockingham County, 
North Carolina. I believe that you all in Congress have one of 
the toughest jobs in our Nation today: You're being asked to 
fix a broken immigration system in the U.S. and to make sure 
that your legislation will provide a solution that will last 
for many years to come.
    I come before you today not as an expert in immigration law 
or border security, I am just one of 3,080 sheriff's in America 
that is asking for your help in solving our border security and 
immigration problem.
    Between 2011 and 2012, while working with the Drug 
Enforcement Agency task force in my county, 12 Mexican cartel 
associates were arrested in our county, along with lots of 
Marijuana, millions of dollars of cash, kilos of cocaine, AR-15 
rifles, and assorted firearms. The sheriff mentioned earlier, 
next to my county, Alamance County reported that he had two 
drug-related execution-style murders in the past 5 years. 
According to the Drug Enforcement Agency report, North Carolina 
is second place compared to the Atlanta region in drug 
trafficking routes by the Mexican drug cartel. And these 
cartels reported to be operating in almost 1,200 cities in 
America.
    In 2 to 3 days--here is the relationship to the border--2 
to 3 days the illegal drugs traveling from the border can be 
anywhere in the United States and also in rural Rockingham 
County, North Carolina. In North Carolina since 2010 I've 
process working with the Federal ICE Secure Community Programs 
151 persons that are criminally charged that are illegal in the 
U.S. Two of the detainees have returned back to be rearrested. 
It has cost us $330,000 to house those inmates and 
approximately 66 percent of those arrested were charged with 
traffic-related offenses.
    I have traveled to Arizona and Texas in the past 3 years to 
see firsthand what my fellow sheriffs, what they're dealing 
with along the border, experiencing drug trafficking, human 
trafficking, illegal immigrations, and other than Mexican 
crossings along our porous southern border of Mexico. And this 
information is being shared with sheriffs from North Carolina 
and across the U.S.
    While I was at a briefing I had the opportunity to ask the 
question of Secretary Napolitano. I asked her, why have we not 
declared the Mexican drug cartel a terrorist organization, and 
what is the reluctance for this Administration to place a 
regular military force on our southern border with Mexico? And 
her answer to me was, Sheriff, we're not at war with Mexico.
    But, you know, can you imagine how frustrating that answer 
was to me, because I tend to differ with the Secretary. Because 
in the past 6 years 58,000 Mexican citizens have been murdered 
by the Mexican drug cartel in Mexico just south of our border. 
That's a war, that's a drug war.
    I have read the proposed House bill 2278, and these are a 
few of my comments. Quickly, I will state the bill empowers all 
law enforcement in America to cooperate making our communities 
safer. Federal ICE agents get the congressional backing that 
they've needed for a long time. The bill allows for Border 
Patrol agents to cross Federal land without fear of sanction 
and legal roadblocks. The bill places oversight and 
accountability on the Secretary of Homeland Security. The bill 
provides the needed funding for immigration detention resources 
and detention officers.
    The bill does not reward municipalities that have chosen to 
become sanctuary cities in violation of our U.S. Immigration 
law. The bill reduces the chances of criminals of all types 
from receiving benefits in status in our country. Because I 
believe that Senate bill 744 we talked about earlier, I believe 
that it does give a path to citizenship for those criminally 
charged who are illegal in our country.
    The bill improves our visa issuance process, and it also 
establishes an ICE advisory council to Congress. I have read 
the public safe provisions of Senate bill 744 introduced by the 
gang of eight committee. I have also reviewed the proposed SAFE 
Act, H.R. 2278. In the short amount of pages your House bill 
will restore the rule of law in immigration enforcement in 
America, as well as the authority reserved for the ICE agents 
to conduct proper interior and immigration enforcement with 
those powers protected by congressional legislation.
    Senate bill 744 fails to meet that standard, in my opinion, 
and I believe its provisions would not only provide amnesty for 
criminal violators, but could endanger the public, which I as 
sheriff am sworn to protect. I do not believe that S. 744 has 
true intentions of tracking visa overstay violators, because if 
it was the intention biometric tracking would be used at all 
international ports of entry. And costs was stated recently in 
debates in the Senate about the decline in that technology 
usage. In my opinion, you can't place the cost on one single 
American life when it comes to homeland security.
    Secretary Napolitano said that this was not an immigration 
bill, but instead a public safety bill. My comment, is if it 
was a public safety bill how come law enforcement wasn't 
involved in the crafting this bill?
    Lastly, border security in S. 744 seems to be secondary to 
amnesty. Mr. Chairman, I personally want to thank you all for 
giving me the opportunity to come before you today and answer 
your questions. I look forward to any questions you might have. 
Thank you.
    Mr. Goodlatte. Thank you, Sheriff.
    [The testimony of Sheriff Page follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Mr. Shaw, welcome.

TESTIMONY OF JAMIEL SHAW, SR., COMMITTEE TO PASS JAMIEL'S LAW, 
                        LOS ANGELES, CA

    Mr. Shaw. Thank you very much, Mr. Goodlatte and Ranking 
Member Conyers. Thank you for holding this hearing.
    On March 2, 2008, the American dream came to a screeching 
halt for my son, Jamiel Shaw, II, also known as Jamiel Shaw, 
Jr. Jamiel was just 17 years young and a football superstar 
destined for greatness when he was gunned down three doors from 
my home while his mother was serving in Iraq.
    Jamiel was a junior at Los Angeles High School and already 
being looked at by universities such as Rutgers and Stanford. 
The last time I spoke to my son he was on his way home from the 
mall. I can still hear his voice: Be right home, dad, I'm right 
around the corner. He never made it home and our lives are 
permanently separated.
    The next time I saw my son he was laying on the ground 
dead. According to the coroner who testified at the trial, 
Jamiel was shot in the stomach first, and while he was lying on 
the ground with his hands covering his head pleading for his 
life, he was shot again. The bullet went through his hand and 
spread into his head.
    On the day of my son's funeral the LAPD came to our home to 
inform us that they had captured the person they believed had 
murdered Jamiel. We also learned that he was executed by an 
illegal alien gang member from Mexico with a history of 
violence. We often hear supporters of people who are here 
illegally say that the children were brought to USA by no fault 
of their own, as if that makes everything right. But many 
people overlook the fact that their parents made a choice to 
violate our laws. The parents of my son's killer made a choice 
to leave their country illegally, entered America illegally, 
and their illegal alien son made the choice to join the gang.
    The illegal alien charged with murdering my son had been 
previously arrested in November 2007 for assault with a deadly 
weapon and battery on a police officer, yet he was given early 
release from jail on March 1st, 2008, a Saturday night. The 
very next day he executed my son and left him for dead like he 
was a piece of trash in the street.
    According to the District Attorney's office in Los Angeles, 
Jamiel was executed because of the color of his skin and the 
color of his red Spider-Man backpack. We learned from Sheriff 
Baca of the LA County Sheriff's Department that shot callers 
from jail order Latino gangbanger inmates to kill Black males 
when they are released from jail. So why aren't politicians 
outraged? Could it be because some politicians care more about 
potential votes of illegal aliens granted amnesty rather than 
the safety of U.S. citizens?
    Sheriff Baca had a violent gang member in the custody that 
was also in the country illegally, and yet they still released 
him back onto our streets to murder our children. Why? 
Politicians say they want the violent ones, but too often when 
they catch them they simply release them back into the 
community only to commit more crimes.
    To this day we still don't know why the Sheriff's 
Department negligently released an illegal alien gangbanger 
from jail. And why was he given a 6-month early release? We 
still don't any why Immigration and Customs Enforcement, ICE, 
didn't pick him up from jail or if ICE was even called by the 
Sheriff's Department for pick up. They refuse to tell us what 
happened.
    According to a report conducted by Senator Dianne Feinstein 
several years ago, the majority of all gangs in the USA 
consists of illegal alien gang members. In spite of this 
report, Senator Feinstein still supports the useless gang 
provisions in the gang of eight illegal immigration bill, which 
rewards illegal alien gangs with a path to citizenship. Why? 
Why would elected officials reward gangbangers who are in the 
country illegally with amnesty and a pathway to citizenship?
    The trial of my son's killer finally began on April 24, 
2012. On May 9, 2012, he was found guilty of first degree 
murder, for which the jury recommended the death penalty on May 
23, 2012. On November the 2nd, 2012, the judge upheld the 
jury's verdict and sentence. My son's killer is now in San 
Quentin on death row waiting for his execution and my son's 
body is now in the Inglewood Cemetery Mortuary in Inglewood, 
California, waiting for justice.
    My family and I supported a law called Jamiel's Law and we 
continue to support Jamiel's Law. Jamiel's Law, like H.R. 2278, 
will deport illegal alien gang members from the USA. Like H.R. 
2278, Jamiel's Law would not wait for them to commit other 
crimes, but would deport them for being in a gang while living 
in the country illegally.
    This is why we strongly support the Strengthen and Fortify 
Enforcement Act, H.R. 2278, also known as the SAFE Act. The 
SAFE Act makes being in a gang and being in the country 
illegally a deportable offense. We hope all elected officials 
will support Congressman Trey Gowdy's bill.
    I would like to end by saying, 5 years have passed and 
there are still many, many unanswered questions regarding the 
execution of my son Jamiel. I would like to ask every one here, 
every one listening who supports the people here illegally, and 
every one who wants to help people here illegally a question: 
What would you do if your child was shot in the stomach and 
shot in the head by an illegal alien documented gangbanger 
negligently released from jail? Would you still support illegal 
immigration and unsecured borders? I think not.
    Thank you for giving me the opportunity to talk about my 
beloved son Jamiel Shaw, II, who I love with all my heart and 
soul. Thank you.
    Mr. Goodlatte. Thank you, Mr. Shaw, for that very 
compelling testimony, and you have all of our shared sympathy 
for that dramatic loss.
    [The testimony of Mr. Shaw follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Mr. Krantz, welcome.

  TESTIMONY OF THE HONORABLE RANDY C. KRANTZ, COMMONWEALTH'S 
                     ATTORNEY, BEDFORD, VA

    Mr. Krantz. Mr. Chairman, Ranking Member Mr. Conyers, other 
Members of the Committee, it is a privilege for a local 
prosecutor who is charged with the duty of faithfully executing 
the laws in their jurisdiction to come before this Committee 
and have an opportunity to be heard. I want to tell you that I 
can only imagine the difficult job you have of balancing and 
weighing all the competing interests and needs and fundamental 
fairness.
    But the fact remains that, like politics, all crime is 
local. At the end of the day it is the States and the 
localities that have the ultimate responsibility to protect 
their citizens by faithfully executing the laws, protecting and 
serving.
    You've heard from Mr. Shaw. You'll hear from Mrs. Durden. 
Sitting behind me today is my chief deputy Wes Nance, who is in 
charge of prosecuting crimes against children. And one of the 
things that we have learned in prosecuting those types of 
crimes is that three elements really are the key to successful 
law enforcement. And I believe that Mr. Gowdy's bill helps 
accomplish those three things. And that is it enhances the 
communication, cooperation, and coordination of all dedicated 
law enforcement officers who are trying to protect and serve.
    If we do not have the communication and coordination and 
the cooperation, then local law enforcement is handcuffed. 
Every day across courthouses in each State, in each town, in 
each hamlet, in each little city there will be a commonwealth's 
attorney or a district attorney, a victim witness advocate 
sitting somewhere explaining to a family why a tragedy has 
happened to their loved one. In the context of crimes against 
children we have learned that we can cooperate with our Federal 
colleagues. We can create a seamless web of protection to 
protect children from Internet predators, to work alongside of 
and in cooperation with ATF in enforcing firearm laws, with the 
Drug Administration in enforcing narcotics trafficking and 
working in multidisciplinary task forces that involve local, 
State and Federal. This isn't an either/or solution, but it has 
to be a purposeful solution.
    In our county, in Bedford County, also sitting behind me 
today is Mr. Gary Babb. Mr. Babb was a sheriff's deputy, the 
sergeant of detectives in Bedford County. His son Adam was 
struck and maimed by a drunk driver that was an illegal alien. 
This particular driver, Mr. Ramos, had previous convictions for 
driving suspended and manufacturing false driver's licenses. At 
the time he struck Adam Babb, it became his second DUI 
conviction.
    This bill, if in effect and if that situation happened 
again, someone like Mr. Ramos would be deportable. In my 
written testimony I indicated that at the time that Mr. Ramos 
may not have been deportable. I have since learned, just today, 
he may have in fact have been deported. And the reason that I 
indicate that, part of the issue is between local and Federal 
enforcement is those communication channels where we can obtain 
the information that we need that when we sit down with those 
victims and we explain to the families what has happened to the 
offender, when will they be released, anything that can assist 
us to provide that closure, to provide that information would 
be of great assistance to local law enforcement. But again the 
key elements are communication, coordination, and cooperation.
    I believe that this bill gives us the opportunity to do 
that. As a commonwealth's attorney, as a prosecutor, it is just 
much as my job to clear the innocent as it is to convict the 
guilty. And I believe that all dedicated prosecutors who 
operate from that ethical paradigm share that view. Nothing 
prevents local, State, and Federal agencies working together in 
cooperation, but the first step is to fully fund and fully man 
the personnel at the Federal level who have the primary 
responsibility to do that.
    This bill would allow that to be done. It would also allow 
the local and State prosecutors, law enforcement, and other 
dedicated professionals to work alongside. One of the key 
interests for prosecutors is that it would provide training and 
education and the ability to learn and to work alongside.
    So, Members of Congress, it is my humble request that you 
consider this bill and note our support for it. Thank you.
    Mr. Goodlatte. Thank you Mr. Krantz.
    [The testimony of Mr. Krantz follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Goodlatte. Ms. Durden, welcome.

                TESTIMONY OF SABINE A. DURDEN, 
          MOTHER OF DOMINIC DURDEN, MORENO VALLEY, CA

    Ms. Durden. Thank you. Mr. Chairman, thank you for the 
opportunity to testify today.
    Mr. Goodlatte. Yeah, hit the button on the microphone 
there.
    Ms. Durden. Mr. Chairman, thank you for the opportunity----
    Mr. Goodlatte. Pull it closer to you as well.
    Ms. Durden [continuing]. To testify today. Thank you.
    Last year around this time, my life seemed very normal and 
ordinary. My only child Dominic, my best friend, my rock and 
support system, shared a house, the bills and responsibilities. 
We enjoyed each other's company and in 30 years were never 
apart for longer than 3 weeks. He brought nothing but pure joy 
into my life, and I so loved just being Dom's mom.
    He was born on January 22, 1982, in Germany. At the age of 
10, we moved to the USA and adapted very well to our new lives 
here. I was a German immigrant myself and became a U.S. 
citizen. Dominic enjoyed the ROTC program and later got his 
private pilot's license. He took an internship with a local TV 
station. He also volunteered with FEMA, the local emergency 
response force, and at different fire stations. In 2002 he 
received the Volunteer of the Year Award from the city of 
Moreno Valley for giving over 1,000 hours of his time.
    Dominic was always a 4.0 student. He accumulated 87 letters 
of recommendations and 111 school and work award certificates, 
some of them from former President Bill Clinton and U.S. 
Senators Dianne Feinstein and Barbara Boxer. Dominic also 
received the 2013 Presidential Award from CPRA, the California 
Public Safety Radio Association.
    Seven years ago he became a 911 dispatcher for Riverside 
Sheriff's Department and worked a very tough and stressful job. 
He loved that challenging task, and every time he was on duty, 
the deputies out in the field would feel safe and in good 
hands. They trusted him and called him the best dispatcher 
around.
    His ultimate goal was to become a helicopter pilot for the 
Police Department. Law enforcement was his passion. His 
coworkers became his friends, and he was a huge part of their 
lives and families. His laugh and presence would light up a 
room. Life was great and so many more awesome things and 
wonderful events to come.
    But, however, life changed brutally and instantly on July 
12, 2012, at 5:45 a.m. My world as I knew it was torn into 
shreds and my heart ripped into pieces. My only child, the love 
of my life, the reason for being was taken from me in the blink 
of an eye. No words can describe the excruciating, deep, and 
agonizing pain you feel when you get that kind of call to tell 
you that your precious life that you brought into this world 
will not come home anymore.
    It's difficult to explain to you what and how I feel of not 
having my incredible son around anymore. A home that was filled 
with joy and laughter is now an empty and quiet house, and the 
pictures, the locket with his ashes around my neck, and the 
precious memories are all I have left.
    This is enough pain for a lifetime, but it gets much worse. 
I was informed that the driver of the truck that killed my son 
instantly was a 24-year-old from Guatemala here illegally 
without a license, without insurance or a legally registered 
vehicle, and on a probation from a prior DUI. And to add even 
more pain and grief, this guy had a lengthy arrest record and 
has been in and out of court and prison prior to this.
    Juan Tzun was arrested for grand theft and armed robbery in 
November 2008 and given 3 years probation. In August 2010, he 
was arrested for a DUI and a probation violation and given 3 
more years of probation. In May 2012, he was arrested again on 
a DUI while on probation from the prior DUI and was given 
probation again. Less than 60 days later, he killed my son.
    Since 2008, Tzun had been given a free pass to do what he 
wants without consequences or actions from our laws. He knew he 
was unlicensed. He knew he wasn't allowed to drive. But on July 
12, 2012, he did what he has been doing all these years, 
flaunting our laws. He hit and killed my son instantly, and all 
he got charged with was a misdemeanor for making an unsafe left 
turn.
    He was in jail for a short time, posted bail, and then 
taken into ICE custody, where he was granted bail by a Federal 
judge and walked out after paying $10,000. The man who risked 
everyone's life unlicensed and illegal was free to continue to 
break all of our laws.
    At last month's sentencing the judge read 16 impact letters 
that cried out for a tough sentence. Tzun was allowed to speak 
and took no responsibility, no ownership, showed no remorse, or 
offered any apology. He told us that God takes life, gives 
life, and he was simply on his way to work. He clearly showed 
all of us and the judge that he will continue to do what he 
wants without any regard for anyone else or the law. And still, 
the judge only gave him a measly 90 days in jail with 5 years 
probation.
    I felt victimized all over and lost all my trust and faith 
in the system and the law. Everyone who has learned about the 
case also has expressed outrage and disbelief in how our system 
failed in such a huge way. My son did not have to die on that 
tragic day if the system and laws had been working. Tzun should 
have been deported immediately after his first arrest in 2008, 
but he wasn't. He should have been detained and then deported 
after his first DUI, but he wasn't. He should have been 
detained and deported after his second DUI, but he wasn't.
    Why does the Department of Homeland Security protect 
illegal alien criminals? I have learned that my story and how I 
was treated is not exception, but the rule. I am now begging 
all of you to please make a huge impact in all of our lives. We 
can't lose any more loved ones to unlicensed drivers who kill 
over 7,200 victims per year, of which 4,000 are killed by 
illegal aliens.
    The SAFE Act would help prevent this from happening to 
another family, another fine young person. The bill will 
improve immigration law enforcement so that more criminal 
illegal aliens will be removed from our communities and fewer 
will try to come in the first place. It will allow ICE to 
deport criminals quickly without waiting months or years for an 
immigration judge. The bill makes anyone who is convicted of 
two DUI offenses deportable. The bill will give more resources 
to ICE to do its job. This is badly needed because ICE agents 
want to do their duty but they do not have enough officers and 
enough funding to deport the huge number of illegal alien 
criminals.
    Because illegal aliens have no fear of being caught and 
deported, they behave with a sense of impunity and lack of 
personal responsibility for their conduct and the safety of 
others.
    Finally, the bill would allow local governments and law 
enforcement agencies to assist ICE by arresting illegal aliens 
they encounter. If ICE had more funds for detention of 
criminals, then Tzun would not have been released on bond while 
awaiting trial and he would not have been a risk to others. 
Please don't let one of your loved ones become the next victim. 
Please pass the SAFE Act this year. And thank you so much for 
letting me testify.
    Mr. Gowdy [presiding]. Thank you, Ms. Durden. And on behalf 
of all of us, we express our sympathy to you for your loss.
    [The testimony of Ms. Durden follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               SUPPLEMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Gowdy. Ms. Tumlin.

   TESTIMONY OF KAREN C. TUMLIN, MANAGING ATTORNEY, NATIONAL 
                     IMMIGRATION LAW CENTER

    Ms. Tumlin. Chairman Goodlatte, Ranking Member Conyers, and 
Members of the Committee----
    Mr. Gowdy. You may want to make sure the green light's on, 
on your microphone. Is it on?
    Ms. Tumlin. How about now?
    Chairman Goodlatte, Ranking Member Conyers, Members of the 
Committee, it's my pleasure to be here today. Thank you for 
this opportunity to discuss the SAFE Act and why it would have 
serious and far-reaching negative consequences if enacted.
    The SAFE Act, if enacted, would radically change the laws 
and policies governing immigration in the United States. I want 
to focus on three key ways that it would do that. First, it 
would obliterate Federal oversight and control over our 
Nation's immigration policies. Secondly, it would put into the 
hands of State and local jurisdictions the ability to detain, 
essentially without limit, potentially indefinitely, 
individuals based solely on suspicion that they might be 
removable from this country. Third, it would radically increase 
detention for nothing more than civil immigration violations.
    The impact of these changes would be nothing short of 
disastrous on American families and communities. It would lead 
to patterns of unjustified and unconstitutional detentions, as 
well as patterns of unconstitutional racial profiling based 
merely on one's appearance or the fact that they may speak with 
an accent.
    What I would like to do is focus on just two provisions in 
the SAFE Act and explain them a little bit. Of course I am 
happy to answer any questions that the Committee Members may 
have afterwards.
    So first, the SAFE Act would allow not only every State, 
but also any locality within the State to pass civil or 
criminal laws so long as those laws mirror Federal immigration 
law. This would not be a patchwork of 50 State immigration 
regimes. It would be literally thousands upon thousands of 
different regimes. Make no mistake, and let's be clear about 
this: This is not cooperation of State and localities with 
Federal officials in terms of enforcing immigration law. It 
puts States and localities in the driver's seat and the Federal 
Government in the back seat.
    I want to give you an example of how this plays out. A 
couple of years ago, Georgia tried to do exactly this, and we 
sued them in court. They passed a State criminal penalty to 
criminally prosecute individuals who were harboring or 
transporting undocumented individuals. They said, this mirrors 
Federal law, we can do it.
    However, when they were defending that law in court, they 
made clear that they intended to prosecute U.S. citizens, 
teenagers who were driving their mother to the grocery store to 
get milk. And so the question before the Committee is: Is that 
good policy? Does that make sense? Do we want to prosecute 
overnight everyday acts of kindness by U.S. citizens to their 
family members?
    The second provision I would like to highlight has already 
been referenced this morning in opening statements. It's a 
provision that we've seen before. It just takes a different 
form. This provision would overnight allow for criminal 
penalties, criminal prosecution against the 11 million 
Americans in waiting who are undocumented now and members of 
our communities and our families. And again, the question is: 
Do we want to criminalize that mother? Do we want to spend 
precious resources detaining and deporting people who are part 
of our communities and part of our families?
    We don't have to guess at what would happen when you give 
this kind of immigration enforcement power to State and local 
governments. The evidence is piling up. Again, it's referenced 
in the written testimony. It's been referenced this morning. We 
see it in Federal finding after Federal finding, from the 
Department of Justice against the 287(g) programs that were run 
by Maricopa County and Alamance County.
    We also have seen it as the State efforts to implement 
their own immigration laws have taken effect. And, again, I'll 
give you an example. This one is from Alabama. When Alabama's 
racial profiling law was allowed to take effect, we staffed a 
hotline with our legal partners to take calls from individuals 
about what was happening. And what we heard was story after 
story after story of individuals who were being stopped based 
nothing more on their skin color.
    I would like to urge the Committee to reject this wrong-
headed and single-minded approach to the deep issues in our 
immigration system.
    Mr. Gowdy. Thank you, Ms. Tumlin.
    [The testimony of Karen Tumlin follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. Ms. Martinez.

  TESTIMONY OF CLARISSA MARTINEZ-DE-CASTRO, DIRECTOR OF CIVIC 
    ENGAGEMENT AND IMMIGRATION, NATIONAL COUNCIL OF LA RAZA

    Ms. Martinez-De-Castro. Thank you, Acting Chairman Gowdy 
and Ranking Member Conyers, for the opportunity to testify on 
behalf of NCLR.
    There is clearly too much tragedy related to letting this 
issue continue unresolved. For the last two decades, the 
problems in our immigration system have largely prompted one 
prescription: enforcement. While enforcement is essential, 
alone it cannot fix all of those problems which are resolvable 
if we don't keep providing a one-dimensional response no matter 
its consequences.
    The Strengthen and Fortify Enforcement Act unfortunately 
largely focuses on adding strength to an old prescription that 
has not cured our ills but will have detrimental side effects. 
While it includes some needed provisions, such as ensuring 
enforcement agents have equipment they need, prosecuting 
criminal smuggling rings and human smuggling rings, the 
benefits are far outweighed by some of its other provisions.
    And let's be clear: No one argues that the perpetrators of 
the crimes and tragedies described here today should stay in 
our communities. That should not happen. But this bill would 
make Arizona's SB 1070 the law of the land. Known as the ``show 
me your papers'' law, 1070 was condemned by the country's civil 
rights community because it legitimized racial profiling and 
every facet of mainstream America was represented among those 
opposing it, including members of law enforcement.
    Frustration over Federal inaction to fix our broken 
immigration system led many Americans to express support for 
it, but not because they thought 1070 would fix the problem, 
but because they wanted action. Since then, the message coming 
from States that debated copycat laws, and 31 States rejected 
that approach while the 6 that adopted it face lawsuits and 
injunctions. The message was that only the Federal Government 
could fix our immigration system the way that is required. This 
Committee has the ability to provide the real solutions, and it 
is imperative that you fix the system, not make things worse.
    But rather than assert Congress' responsibility to restore 
an orderly system, this bill poses a massive and unnecessary 
delegation of authority. The effect of that delegation will be 
to create a patchwork of laws that will add more chaos, not 
more order, to our immigration system. There is widespread 
evidence that delegating to States and localities the 
enforcement of Federal immigration laws threatens civil rights, 
and that has been mentioned here by Members, as well as Ms. 
Tumlin.
    By expanding such practices, H.R. 2278 would lead to racial 
profiling and wrongful detention because everyone who looks 
``illegal'' would be subject to law enforcement stops, arrests, 
and detention. And it would criminalize otherwise innocent 
behavior. The legislation would increase the possibility, for 
example, that a church taking in undocumented children after 
their mother got deported would be subject to harboring 
charges.
    To some, the violations of rights and values of ``show me 
your papers'' policies may seem just like collateral damage. To 
the Nation's 52 million Hispanics, 75 percent of whom are 
United States citizens, the damage is not collateral at all. 
According to the Pew Research Center, one in 10 Latino citizens 
and immigrants alike report being stopped and questioned about 
their immigration status. That means that over a few years, 
most Hispanics face a virtual statistical certainty that they 
will be stopped by police based on their ethnicity. If that 
were happening to all Americans, I suspect we would not be 
having this debate.
    A patchwork of immigration laws is bad for the Nation and 
is a recipe for disaster for the Latino community. At a time 
when momentum is building for the immigration reform our 
country deserves, it is disheartening to be taking a look back 
instead of forward. Our country deserves better.
    The way you restore the rule of law is to have a legal 
immigration system that takes the legitimate traffic out of the 
black market, allows immigrants to come with visas and vetted 
rather than with smugglers, and allows immigrants who are 
working and raising families in the U.S. to come forward, go 
through criminal background checks, and get in the system and 
on the books if they qualify.
    The enforcement-and-deportation-only approach cannot get us 
there. Adding more layers to it may seem the politically easy 
thing to do, and this Committee has been doing almost 
exclusively that for the last 20 years. In this case, those 
proposed new layers in the name of immigration enforcement will 
have serious negative effects across the country and especially 
in communities where people look like me.
    I urge you to take the smarter, more comprehensive approach 
and pass the real solutions that we need. And I agree with Mr. 
Labrador, who yesterday said that we need to have a 
comprehensive approach to immigration because it is the right 
thing to do and it is the right policy. And I urge him and all 
of you to make those true solutions a reality. Thank you very 
much.
    Mr. Gowdy. Thank you, Ms. Martinez.
    [The testimony of Ms. Martinez-De-Castro follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Alabama, Mr. Bachus, for his questions.
    Mr. Bachus. Thank you.
    Let me address the two witnesses at the end of the table. 
And I think you know that I have advocated for a comprehensive 
approach because I don't think we ought to have two classes of 
long-term residents. I even support a pathway to citizenship. 
But I do think it ought to be earned.
    And let me ask you about someone with two DUI convictions. 
Do you think that they have earned citizenship? Or do you think 
we ought to allow them to stay in our country?
    Ms. Martinez-De-Castro. Well, if we are talking about the 
Senate immigration bill, which I think was referenced earlier 
as allowing a number of the very criminal offenses that were 
described here, as allowing those people to earn citizenship, 
that is not the case. And we wouldn't agree with that. I think 
that some----
    Mr. Bachus. If someone has two DUI convictions, would you 
agree that they do endanger public welfare and safety and the 
lives of not only our citizens, but of other undocumented 
people in our country?
    Ms. Martinez-De-Castro. I think that offenses that endanger 
the public safety and national security need to be taken into 
account.
    Mr. Bachus. Do you think a DUI, do you think that's a very 
dangerous----
    Ms. Martinez-De-Castro. That is part of the legislation 
that we are supporting in the Senate bill.
    Mr. Bachus. So if someone with two DUI convictions, they 
could be----
    Ms. Martinez-De-Castro. I believe that is in the current 
legislation. Is that correct?
    Ms. Tumlin. I would say the following. What I would support 
is that for each applicant, that their individual 
circumstances, including the records, are taken seriously and 
looked at.
    Mr. Bachus. Yeah. I really think that someone that's a 
guest in our country that commits two DUIs. Because a DUI is an 
indication that they are acting terribly irresponsible. And I 
don't think that's earning citizenship in any way.
    What about a gang member of a gang that uses violence?
    Ms. Tumlin. So again, what's in the Senate bill right now 
is that individuals who are gang members are excluded from that 
bill, if that's proven. But again, I do want to be very clear 
that one thing we are concerned about is suspicion, and 
particularly when you judge someone as in a gang based on 
suspicion of a tattoo or skin color.
    Mr. Bachus. I agree with that. But when it comes to 
violence--and I consider DUI as a violent crime. I mean it 
certainly can lead to some tremendous violence. And I think 
that advocates of a DUI bill are going to have to think about 
raising the bar, because when you raise it you may eliminate 
100,000 or 50,000 people in our country. But you may, those 
that are behaving in a responsible manner, you are not 
excluding.
    And let me ask you this. In Alabama--and I ran in an 
election when 70 percent of the people in my district supported 
the immigration bill and 61 percent of the people in my 
district strongly supported it, and I won almost 70 percent of 
the vote. Didn't lose one voting place. So they gave me a pass.
    But I didn't oppose the fact that--and don't think that we 
can enforce a comprehensive immigration bill without the 
assistance of local law enforcement. And I don't see how you 
enforce our criminal laws and our statutes or any of our laws 
once they become laws without assistance of local and State law 
enforcement. That's the only enforcement we have in most of the 
counties I represent. We may have two ICE agents.
    And I hear you say you want it comprehensive, you want it 
consistent. But do you not recognize that local law enforcement 
is going to have to have a major role in enforcing all our 
laws?
    Ms. Tumlin. So there is a difference between assisting and 
leading. And with respect to law enforcement, I would say the 
following, and it's really grounded on what law enforcement 
officers have been telling us for the last several years and 
even before that about what they need to do their own jobs. 
First and foremost, law enforcement officials, including the 
scores of law enforcement officials who wrote an amicus brief 
to the Supreme Court last year regarding Arizona's law, said we 
need local control. We know best how to make decisions about 
how to police our communities and keep them safe. And in 
addition, they have said, when people are afraid to talk to us, 
when members of immigrant communities will not come forward and 
report crimes to us, we cannot do our job.
    It is astounding what is in the most recent report that's 
cited in our written testimony about what Latinos say about 
coming forward to law enforcement. A whopping 28 percent of 
U.S.-born Latinos, U.S.-born, U.S. citizens----
    Mr. Bachus. I understand. But I guess I am just saying, can 
we have enforcement and interior enforcement, which I think we 
all agree we have to have, without local law enforcement being 
involved and empowered?
    Mr. Gowdy. The gentleman's time has expired.
    I would now recognize the gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This is a very unusual situation we have here today. We 
never have eight witnesses at a time. This sets some kind of a 
record. But we welcome you all anyway.
    And I want to ask about how this bill, Attorney Tumlin, is 
even more stringent and maybe unconstitutional than a bill 
passed 7 years ago called H.R. 4437. And it essentially tried 
to do some of the things, but not all the things that are 
present here in H.R. 2278, because we're doing more than 
strengthening enforcement. We're turning over the 
responsibilities normally of the homeland security and the 
immigration authorities to local police.
    So this isn't a matter of taking powers away from local 
enforcement. This is a matter of having them begin to become 
immigration agents. What are your thoughts in that regard, 
ma'am?
    Ms. Tumlin. Thank you Ranking Member Conyers. Absolutely, 
this bill, the SAFE Act, goes well beyond what we saw in H.R. 
4437. It does so in three ways, at least.
    First, as you indicated, it absolutely surrenders control 
to State and local jurisdictions in terms of enforcing 
immigration law. It allows them to create their own crimes and 
civil penalties to arrest, detain, and investigate individuals 
for those. And it mandates the use of Federal resources and 
Federal dollars to detain individuals on those charges. So the 
State and localities aside, they have got the crimes and the 
Federal Government is going to pay when they lock them up.
    Second, it mandates detention of noncitizens after the 
expiration of their underlying State or local charge without 
probable cause, and it even does so indefinitely without a time 
limit for anyone the State or local jurisdiction believes might 
be removable from the United States. It does that without 
providing training, oversight, and control. It allows local 
officers who are not versed in the complexities of immigration 
law to make those decisions and it would have severe 
consequences.
    And last, as the Ranking Member already alluded to, it will 
radically increase the number of individuals who are 
criminalized for nothing more than being present in this 
country without status, no matter if they have been here 5, 10, 
15, 25 years.
    Mr. Conyers. Thank you so much.
    Ms. De Castro from the National Council of La Raza, did you 
want to add anything to this discussion that I just had with 
the Attorney Tumlin?
    Ms. Martinez-De-Castro. I think the main thing here--and I 
do agree with Mr. Krantz that the either/or approach doesn't 
work. We need to find a balance. We may disagree on what the 
balance is. But I think that having laws that basically put a 
bull's-eye on the forehead of America's 52 million Latinos is 
probably not striking the right balance. I think we can do 
better than that. We need laws that, indeed, are going to 
remove the types of criminals that are being talked about, 
because I do agree, particularly in the immigrant community, 
those criminals prey upon that vulnerable population first and 
foremost. We are not advocating for them to remain there or 
elsewhere.
    But again, it is about balance. And the big issue here is 
that we have seen now through several court proceedings, 
findings, and lawsuits, that unfortunately this type of 
delegation of law to the State and local level is, indeed, 
leading to racial profiling.
    And there are disagreements, to be fair, in the law 
enforcement community. Obviously we have heard from some of 
those testifying here that they would like to go full throttle 
on those policies. But that should not obscure the fact that 
there are very important voices in the law enforcement 
community that either don't support those policies or are at 
best conflicted because the effect that they have on community 
policing strategies and their ability to fulfill their first 
and foremost mission, which is the public safety and to first 
do no harm.
    And the last thing I would add is, if I may, Congressman 
Bachus, congratulations on your landslide election. I don't 
think that your voters gave you a pass. I think that they, as 
the majority of Americans--and there is a poll of 29 States 
that came out today--actually support a comprehensive solution 
and want this problem dealt with. So I don't think they gave 
you a pass.
    Mr. Conyers. You know, I thank you both very much. And I 
just want to observe that this is going to cost a lot of money 
if this were actually put into practice. And most States and 
localities can't afford it. And I can attest that the Federal 
budget can't take it much either.
    But thank you very much for your opinions and being with us 
today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentleman from Michigan.
    The Chair now recognizes himself for 5 minutes of 
questioning.
    Mr. Tumlin, I was going to ask you initially to reconcile 
for me your support of city council members practicing 
sanctuary law, but your lack of confidence in city police 
officers to actually enforce Federal law. But I'm going to go 
another direction.
    To my friends who are in local DA's offices and local law 
enforcement, I want you to pay close attention to what you've 
heard so far. You are good enough to investigate homicide 
cases. You're just not good enough for us to trust you with 
immigration cases. You're good enough for drug cases, even 
though that area has been occupied by Title 21 for decades. 
You're good enough to help with drug cases. You're just not 
good enough to help with immigration cases.
    You're good enough to help, despite the fact that the 
Second Amendment clearly occupies that field if you want to 
talk about preemption, it clearly occupies the field, Title 18, 
922(g), 924(c), all the Federal firearms statutes. You're good 
enough to have your own State firearms laws. You're just not 
good enough to help out with the immigration laws. And even 
though the Federal system has the Hobbs Act to take care of 
armed robberies, it's okay for States also to have armed 
robbery statutes. We don't just tell the Feds, you're the only 
ones who can occupy drugs and firearms and robbery cases.
    So I'll tell you this: I've worked with State prosecutors 
and Federal prosecutors and State and local law enforcement. If 
you're good enough to do homicide cases, then I trust you to do 
immigration cases. And I think it's a shame that anybody 
doesn't. If you're good enough to investigate the most serious 
crimes in this country, but yet we're worried about you 
understanding the complexities of immigration law?
    I've heard a lot about respect for the rule of law. I'm 
interested in respect for the rule of law. I'm much more 
interested in adherence to the rule of law. Because nothing 
undercuts the fabric of this Republic like people picking and 
choosing which laws they're going to enforce, when they're 
going to do it, when it's politically opportune for them not to 
do it.
    So I'm happy to talk preemption. I am happy to talk stare 
decisis. I'm happy to talk Supremacy Clause. I'm happy to talk 
enumerated powers or any other legal concept you want to talk 
about. What I will not do is let State and local prosecutors 
and State and local law enforcement be disparaged and say we 
trust you to handle homicide cases but we're not going to trust 
to you handle immigration cases. That I will not do.
    I started this debate months ago saying I am happy to find 
a synthesis between the respect for the rule of law that 
defines us as a Republic and the humanity that defines us as a 
people. I am happy to do that, to search for that synthesis. 
But I am not going to pursue the humanity at the expense of the 
respect for the rule of law. I'm not going to do it.
    Sheriff, do you think you're capable of enforcing 
immigration laws if your jurisdiction--if your jurisdiction 
decides to pass ones that are not inconsistent with, but 
consistent with Federal law, do you think you're capable of 
doing that?
    Sheriff Babeu. Absolutely Mr. Chairman. And this is to your 
point. And I appreciate your remarks because it quite frankly 
was offensive to hear that. I have close to 700 men and women 
that work in our sheriff's office who risk their own personal 
safety, their lives, and oftentimes for those who are illegal. 
We do not differentiate. And we have several hundred of my 
staff who are Hispanic. What are we saying about them?
    And the fact that we swear an oath to preserve, protect, 
and defend our Constitution, we put our lives on the line for 
all people. And the fact that we're in this conversation, this 
debate today, you trust me, you trust every law enforcement 
officer in America to deal with not only the most complex 
issues for U.S. citizens, that we can make life-and-death 
decisions, the only profession in our land that can take 
another person's life, and yet we're saying here we're not 
smart enough to be able to ask questions and to call out to 
help for ICE, which is what we did. We're not asking for 
something that we didn't have. I only had 13 of my deputies and 
detention officers who are 287(g) certified.
    I've got a full plate in Pinal County. I don't want to do 
ICE's job. But we should be able to talk together and work in 
concert together to solve an issue. How did we get to this 
point that the cops are now the bad guys? And it's because that 
we, as a country--Republicans and Democrats--have failed to 
address this issue and to solve it.
    So we're put in the cross hairs and are disparaged and that 
of course our motivation, and this is one of the casualties of 
this, the undermining not just of the rule of law, but those 
who preserve and protect on a daily basis every person's 
safety.
    Mr. Gowdy. Well, Sheriff, I appreciate it. My time is up. 
If we have a second round, I will get the district attorney to 
help me understand how city council members in certain cities 
are smart enough to ignore Federal law and create sanctuary 
cities, but these guys aren't smart enough to enforce Federal 
law. We will get to that in the second round.
    With that, I would recognize the gentlelady from California 
Ms. Lofgren.
    Ms. Lofgren. I wonder if I might allow Mr. Gutierrez to 
lead ahead of me.
    Mr. Gowdy. Certainly. I recognize the gentleman from 
Illinois, Mr. Gutierrez.
    Mr. Gutierrez. Thank you. First of all, I think this debate 
has gone really in the wrong direction. It's almost as though 
this side of the aisle now is against the cops and against 
enforcement and is for murderers and criminals and drunk 
drivers. Nothing could be further from the truth.
    When we introduced comprehensive immigration reform, the 
first 400 pages of the 600 pages were enforcement, enforcement, 
and enforcement. More police officers. More ICE agents. And I 
think it's regrettable that we have a debate in which somehow 
this side of the aisle is weak, this side of the aisle is 
somehow unsympathetic to the murdering of children. We are not. 
We think those despicable foreigners that come to this country 
should be the first in line to get kicked out of this country 
after they've paid the price in our prisons and our penal 
system.
    But to somehow, all of a sudden--because this is the debate 
that we're having--that all the 11 million undocumented workers 
in this country get reduced to drug dealers, to gang members, 
to part of cartels? That is just not the truth.
    And so as I hear this debate today, I say to myself, what 
happened to the eight, nine hearings we had in which people 
came forward to testify and they said, we can make a decision. 
Are our crops going to be picked in foreign countries by 
foreign hands or are they going to be picked here in the United 
States by foreign hands? Either way, that backbreaking dirty, 
filthy work is probably not going to be done by us.
    So there is a reality in America. We had debates and we had 
witnesses come forward to say, let's fix the broken immigration 
system because they're not all gangbangers. They're not all 
drug dealers. They're not all murderers. They're not all people 
who are racing down the streets killing people while they're 
drunk. You know who they are? They're the moms and dads of over 
4 million American citizen children caught up in a broken 
immigration system.
    And what do we really want? Do we want you, Sheriff, do we 
want the law enforcement agencies going after the moms and dads 
who are waking up every day to provide for their American 
citizen children? I say no. But here is what's happening. There 
was just a study, 41 percent of Latinos said they are less 
likely to speak. And those are the ones that are legally in the 
United States.
    It is as though the undocumented workers in this country 
are somehow a pariah on which all of the evils of our society 
and all of the ills of our society should be thrust upon. That 
just is not the case. And to say to hundreds of thousands of 
young children, one of the things that I always consider is I 
certainly hope that my children are never judged by my actions. 
My children should be judged by their own actions. And children 
brought here as children to this country should not be judged 
by the actions of their parents. They were not knowingly doing 
anything. They did not have the will to make a decision to come 
here or not.
    They have come out of the shadows. I mean everybody says, 
oh, well, those dreamers. You know what they did? They applied. 
They said, I'm here out of status, government. And you know 
what the government? They didn't send them back a letter that 
said, welcome, come on down, happy to have you here. You know 
what they sent them a letter? They said, come on down and give 
me your fingerprints and prove to me that you are not a 
gangbanger, a drug dealer, or anybody involved in criminality. 
And if you can do that, I am going to allow you to work while 
we fix our broken immigration system.
    So all I am trying to say here this afternoon is, we 
started so well. January, February, March, April, May. Part of 
June. Let's finish it. Let's not demonize. Let's not pick 
winners and losers. Let's just say, we've got a broken 
immigration system. Because I am going to tell you something 
and I've told Mr. Gowdy this. I'm for E-Verify so that every 
American gets first crack at any job in America. I'm for 
whatever you need on the border if you think you need more of 
that. I'm for more enforcement. But I'm also for humanity. I'm 
also for treating people like human beings.
    So I don't have questions for you. I simply have a plea. 
Can't we just move this agenda forward? You can get what you 
want because I'm ready to sit down and give enforcement and not 
question you. All I'm trying to say is, it takes 218 votes. So 
what are we going to do, have this fight again? We've seen this 
before. And you know what you have got? You have got millions 
of people when they introduced almost this identical 
legislation and they came to the streets and they protested and 
they elected people like me and others to say, okay, let's fix 
it.
    I have gone too far, Mr. Chairman. I want to say, I joined 
this Committee after 20 years of service on Financial Services 
to fix this problem. I'm not for criminal. But I am for decent, 
humane treatment of millions of workers--not foreigners that 
came here to do damage, but immigrants who came here to 
contribute.
    Thank you so much, Mr. Chairman, for your generosity.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The Chair would now recognize the gentleman from North 
Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    It's good to have all of you with us today.
    Sheriff Page, as a sheriff of a State that does not share a 
border with Mexico, give us an idea of the impact that stricter 
immigration enforcement would have on the area that you serve.
    Sheriff Page. Well, it's kind of related like to my jail 
situation. I have a responsibility in my county to know who's 
coming in and out of my facility, as immigration should have 
the ability to be able to track who is coming into and leaving 
from our country. And the problem is right now, when I talk to 
the ICE agents from across the country and I talk to their 
representatives, they're not getting the support from the 
people that should be giving them support in the government to 
let them do their jobs. Free their hands and let them to do the 
work they need to do.
    What was discussed earlier today, I'm sure that not every 
sheriff in America or every police chief in America wants to do 
immigration enforcement. But I do 100 percent support my 
Federal, State, and local agencies when we come together in 
task force and different groups to work together as a force 
multiplier. I just want to be able to back up ICE when they 
need help and they need my support. And the same thing with the 
Border Patrol when they need that request if I lived on the 
border.
    So I feel, Mr. Coble, that if we support our immigration 
officers in the State, we can do a better job identifying that 
percentage. And I know that all 11.5 million people that are 
illegal in this country are not criminals. But we want to 
identify those criminals and get them off the street and put 
them in prison and return them to wherever they came from and 
get them out of this country. And that is an obligation I have.
    Mr. Coble. Thank you, Sheriff.
    Sheriff Page. Yes, sir.
    Mr. Coble. Sheriff, I think I know the answer to this 
question. But what good purpose will be served when we deport 
the criminal aliens? I presume they are probably in charge of 
the local gangs. Is that a valid conclusion?
    Sheriff Page. I'm sorry?
    Mr. Coble. I said when we deport alien criminals, how is 
that helpful with you as the high sheriff of the county? 
    Sheriff Page. As a sheriff, when we can remove criminal 
elements from our community, that does help to improve our 
communities by getting the criminals out. And I won't get too 
heavy into the border, but again we also have to pay attention 
to stopping that flow back and forth because right now, like I 
said, we're picking up individuals that are tied in with the 
Mexican drug cartel in North Carolina, in my community, and 
it's not just my community in North Carolina either. And we are 
concerned when we see that activity traveling 2 to 3 days from 
across the border into our communities.
    And without a good, defined, secure strategy and tactics on 
our border to secure it, lock it down, we are going to continue 
having these problems. Even if we work toward fixing the 
immigration system, we've got to fix our borders, because if we 
don't secure our borders in America, every sheriff in America 
will be a border sheriff.
    Mr. Coble. Thank you, Sheriff.
    My friend from Arizona, in your written testimony you 
discussed at length the need for a secured border. While a 
secured border is vital to ensure that people do not come here 
in violation of the law, of what importance is robust interior 
enforcement, that is away from the border?
    Sheriff Babeu. Well, sir, I mean, I think it's critical 
because for the first part of it is that almost half of the 
people that are here illegally now didn't cross our border. 
They didn't make an illegal entry. They would have never come 
in contact with U.S. Border Patrol. They came here on visas and 
they overstayed those visas. They came here legally. So whose 
job is it to enforce those laws, to police those individuals?
    Obviously, we know as well that a lot of the individuals 
that have come to our country engaged in terrorist activities 
have not crossed our borders. They have come here on visas. 
They have come here legally. We need to be aggressively 
enforcing our laws with regard to those individuals.
    But also I think what we've heard a little bit here today 
about is the criminal element. There is definitely a 
disproportionate number of criminals that's crossing our 
borders and coming into the country. And again, that's our 
responsibility. The jails are full of criminal aliens. And 
that's not to say that every person here of the 11 million is a 
criminal, but there are definitely extremely large numbers of 
criminals coming into our country.
    With our limited resources that we have, according to the 
Obama administration's numbers, we deported 225,000 convicted 
criminals last year, 225,000. That's half the population of the 
State of Wyoming. That's, you know, bigger than the Marine 
Corps when I was in it. That's a lot of people. And we're not 
even scratching a dent in this criminal alien problem, as well 
as the gangs.
    So our involvement, our enforcement is critical, critical, 
critical to community and public safety as well as national 
security.
    Mr. Coble. Thank you all again. I want to beat that before 
that red light illuminates. Alamance County has been mentioned 
twice today. It is my belief that that matter has still not 
been resolved. But we can talk about that at a later date. In 
any event, good to have all of you aboard.
    I yield back, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from North Carolina.
    The Chair would now recognize the gentlelady from 
California, the Ranking Member of the Subcommittee, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. First I would like to 
ask unanimous consent to include in the record eight letters in 
opposition to this bill.
    Mr. Gowdy. Without objection.
    Ms. Lofgren. And I would also like to ask, I want to make 
sure that--I think I was precise but I want to double back and 
make sure--because I think what I said in my opening statement 
was that the Justice Department had concluded that the Alamance 
County sheriff and his deputies had engaged in discrimination. 
And I would ask unanimous consent to put into the record the 
findings from the Department of Justice that the Sheriff's 
Department did engage in intentional discrimination. And my 
colleague Mr. Coble is correct. They also filed a lawsuit which 
is still pending. So we're both right. And I would ask 
unanimous consent that both the complaint and the findings be 
made a part of this record.
    Mr. Gowdy. I never doubted for a moment you were both 
right. And without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               



                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
    Ms. Lofgren. Great.
    You know, I just want to say that certainly I have a very 
close relationship with the prosecutors in my county. I have 
tremendous respect for them, as well as the law enforcement 
agents. And I think it's incorrect to suggest that because 
immigration law is enormously complex and maybe not an area of 
expertise for my friends in the DA's office, that somehow that 
insults them. As a matter of fact, I think my friend the DA in 
Santa Clara County would agree that he is not an expert on 
immigration law.
    So I guess I'd like to ask you this, Sheriff Babeu. You 
took offense, and I meant none. Let me ask you this question. 
If you found someone who was born on November 15, 1986, whose 
mother was a United States citizen, would that person have 
derivative citizenship if she had been in the U.S. for 3 years 
prior to that child's birth?
    Sheriff Babeu. Through the chair, Ms. Lofgren, quite 
frankly right now we don't do anything in regards to that. And 
if we have 13 deputies who get enhanced training, they actually 
come back east, and those would be the only deputies that 
would.
    Ms. Lofgren. Well, I'll tell you, the manual for local law 
enforcement is about that thick----
    Sheriff Babeu. Sure.
    Ms. Lofgren [continuing]. And the immigration code is this 
thick.
    Sheriff Babeu. Certainly.
    Ms. Lofgren. And I'm not insulting you. I value what law 
enforcement does. I used to teach immigration law, and there 
are many nuances that are important and critical on whether 
someone is a U.S. citizen or not. In fact, you have to be 5 
years in the U.S. prior to the child's birth, at least 2 of 
which have to have been before the age of 14. And it can 
include presence in not only the United States, but also 
possessions. And those are things about whether you're an 
American, not an illegal person.
    Sheriff Babeu. And I can answer that. We actually have 
numerous situations because when, through policy, through ICE, 
and when the President came out and said anybody who has been 
here for 5 uninterrupted years or longer, they shall be allowed 
to stay here. So what we did, our deputies----
    Ms. Lofgren. If I can interrupt, because I want to ask one 
other question. It's not about whether you can follow the 
policy that the President outlines or that ICE outlines. I 
don't doubt that.
    Sheriff Babeu. Sure.
    Ms. Lofgren. And I also don't doubt that you're good at 
arresting people who are drug dealers. I mean, great. I want 
you to do that.
    Sheriff Babeu. With that situation, we would do nothing. We 
wouldn't even ask the question.
    Ms. Lofgren. But there have been--and this goes to my 
question I guess, Ms. Martinez. You, in your written testimony, 
outlined instances where American citizens have been deported, 
which is a travesty. I wonder if you can--you didn't have an 
opportunity to go through that. But we have come across 
numerous instances where mistakes have been made, including in 
LA County, where American citizens were apprehended and then 
deported, even though they were Americans from birth. Can you 
address that issue?
    Ms. Martinez-De-Castro. Thank you. Indeed, there are 
several of those cases, particularly that were documented in 
the recent findings about Maricopa County, in terms of the 
discrimination. And in terms of people being deported, there's 
a variety of reasons. Somebody doesn't answer the right 
question and they end up being categorized as somebody who is 
deportable. It has happened to U.S. citizens. I know it is 
extremely hard to fathom. But it does happen.
    And part of the reason is that the toxic nature of our 
immigration debate--and that's why we are desperately in need 
of fixing this--has created an environment where there's a lot 
of people--American citizens and legal permanent residents--who 
are immediately categorized as ``illegal.''
    Ms. Lofgren. I want to be respectful of the time. Let me 
just say thank you.
    And to the parents who have lost children, what happened to 
you shouldn't happen to anyone. That is not an argument. 
Certainly we don't want people who have done nothing wrong to 
be stigmatized. But our hearts go out to you. And I think there 
is really unanimity about going after the criminals here in 
this room.
    I yield back to you, Mr. Chairman.
    Mr. Gowdy. Thank the gentlelady from California.
    The Chair would now recognize the gentleman from 
Pennsylvania, former United States Attorney Mr. Marino.
    Mr. Marino. Thank you, Chairman. I wish my friend Luis 
Gutierrez was here because I agree with him on many of the 
issues. I don't agree with him where he categorizes this side 
by saying we want all the Hispanics and illegals just moved out 
of the country for no reason at all. We're talking about the 
people who caused the death of these--this father and this 
mother here that should be moved out of this country. And given 
the fact that they had criminal records, if they were sent and 
deported back or put in jail when they were supposed to be and 
not released, their children would be alive today. And so----
    Mr. Conyers. Would the gentleman yield for just a moment?
    I agree with you. But if there were trials--and in one 
case, there may have been, and in another there wasn't--that's 
for the court to determine.
    Mr. Marino. Reclaiming my time, sir.
    As a prosecutor, I know what the court should determine. 
But given the circumstances and based on immigration law, those 
individuals should have been at least detained and sent back 
eventually. So I am not saying they didn't deserve a trial. 
That's not the issue.
    Ms. Martinez, you very eloquently spoke to the fact of what 
we need to do. But I think you did not speak clearly enough on 
it's going to take enforcement. You did say that a large 
majority of Americans want immigration fixed. I want it fixed 
also. And I know we're not going to send back 11 million 
people, and I'll be standing at the front of the line to argue 
that.
    But the question wasn't asked that way. If you would ask 
those people, should they all get amnesty, you would see those 
numbers significantly decrease, because I'm not only hearing it 
from my district in Pennsylvania, I am hearing it from people 
across the country. We need to deal with this but not total 
amnesty.
    And there was a statement about enforcement levels of this 
Administration have increased. That's not true. I'm 
disappointed in this Administration and I'm also disappointed 
in the Bush administration for not addressing this issue in the 
previous Administration, in the Bush administration. What ICE 
has been doing, what Homeland has been doing is those 
individuals sent back at the border are considered to be 
individuals that were here and sent back and that's how they 
inflate the numbers.
    Ms. Tumlin, I am offended by your statement. I am offended 
because, as the Chairman said and my friend, my assistant U.S. 
attorney, when I was a district attorney in Lycoming County, 
Pennsylvania, for 10 years, the Federal Government, ICE, Secret 
Service, FBI, came to local law enforcement and said, help us 
solve these crimes, no matter if the criminals were dealing 
drugs or no matter if they were illegals. Because I agree with 
the statement that was made, that all law enforcement is 
grassroots.
    And then when I became a United States attorney, I went 
right back and I was the United States attorney for 7 years, I 
went right back to those district attorneys and those sheriffs 
and those police officers and said, help me enforce the laws of 
the Federal Government. And it was very helpful because most of 
my cases were solved by those people there.
    And I want to ask you a question. You certainly pick apart 
law enforcement in your statement. You say that locals should 
not be--have the authority and the power to do what they have 
been doing over the past several years except when this 
Administration stopped it. That's the backbone of law 
enforcement. The Federal Government wouldn't operate without 
these individuals. And I take insult to that.
    And as far as the individual driving mom to the store and 
getting milk and should that person be prosecuted, if they're 
here illegally, if they know he shouldn't be driving and he 
doesn't have a license, it's a violation of the law. So why 
would you say that these people aren't qualified when the 
Federal Government relies on them to enforce the law?
    Ms. Tumlin. I appreciate the Representative's question. And 
I think as a prosecutor, of course you know that in that 
example the prosecution that the State of Georgia was talking 
about was not for driving without a license. They were talking 
about the prosecution under their own law for harboring and in 
this case for transporting an undocumented immigrant.
    Mr. Marino. It's still illegal. So you do not think that is 
a good law. But the law that they're enforcing for immigration 
or should be enforcing is a bad law?
    And let me ask you this question. I commend you for your 
cause and what you do and for the work that you are trying to 
do for people that are here illegally. But have you ever taken 
the time to talk to people like Ms. Durden and Mr. Shaw about 
what they lost, about how their rights were violated, about 
their child, their constitutional rights were violated, and 
they're not here today to enjoy their children? You seem to be 
jumping on the fact that we want to prosecute every illegal 
immigrant that's here and send them right back regardless of 
any cause.
    Let me tell you something. That's not the case. I've been a 
prosecutor for most of my life and the rule of law is the rule 
of law. And you can't sit there and pick and choose what laws 
you want enforced and who should enforce them.
    Ms. Tumlin. So what I'd like to say briefly, if I may, to 
the question, because it is--I think it is an incendiary 
remark. And what I would say about the absolutely unspeakable 
tragedies that we heard about today----
    Mr. Marino. Well, let me interrupt you, because I didn't 
hear you mention one word about that in your opening statement. 
Ms. Martinez did, but I didn't hear you do it in your opening 
statement. And you're doing it because I'm bringing it up now. 
And I think you need to step back, reevaluate your cause, and 
take into consideration the victims and what these people are 
going through.
    And I yield back my time. I see it has expired.
    Mr. Gowdy. Thank the gentleman from Pennsylvania.
    The Chair would now recognize the gentleman from Georgia, 
Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mixed feelings. Mr. Shaw, Ms. Durden, I am sorry for your 
loss. It was 30 years ago--excuse me, 40 years ago, on May 29, 
1973, that my sister was killed, murdered by a Black guy. And I 
chose not to be angry or unforgiving about that to this day. 
And I just wonder why is it that you two have been brought here 
to share your pain about your loss with the Nation? Were you 
called because we wanted to arouse passions and prejudices 
against people from--or against illegal immigrants? Is it 
because we wanted people to think that all illegal immigrants 
are from Mexico, they're Hispanic? Is it because we wanted 
everyone to feel that all immigrants, illegal immigrants, are 
criminals or drunk drivers or somehow the scourge of our 
community? Is it that why you all were brought here? I can't 
think of any reason why other than that, that you all are here.
    Ms. Durden. Can I answer that?
    Mr. Johnson. And I think that this kind of passion and this 
kind of emotion really is ill placed for our consideration of 
legislation before us. And I appreciate the law enforcement 
personnel who put their lives on the line every day. They are 
asked to do more increasingly with less, and they are 
frustrated because they have a job to do. And if the Federal 
Government can't get its act together, which it has not done, 
then it falls on local law enforcement. And it falls on local 
law enforcement prosecution also, it falls on our jails, the 
citizens are paying for that.
    But there is a deeper reason behind this that leads to our 
frustration with each other, and we end up pointing fingers at 
each other while there is money making going on. That money 
making, ladies and gentlemen, is from the profits of 
incarceration. And so illegal immigrants can be a source of 
revenue for companies like private prison, for-profit private 
prison companies, skyrocketing stock value on Wall Streets. 
Corrections Corporation of America CEO Damon Hininger, back in 
the week of February 20th on a conference call to investors, 
assuring them that incarceration rates will remain high and 
immigration detention will be a strong source of business for 
the foreseeable future.
    Do you all understand how public policy can result in 
dollars in the pocket of business interest? And so what's 
happening is we have turned our attention away from those who 
are making the money and we're blaming each other for 
everything that ails us. And it's really time for this game to 
end. The private prison corporations are members of ALEC, the 
American Legislative Exchange Council, that drafts bills State 
by State and introduced here in the Federal Government, that 
result in these kinds of growth opportunities for business. 
It's wrong, its immoral, and it's hurting, it's killing of 
America.
    Mr. Goodlatte [presiding]. The time of the gentleman has 
expired.
    The Chair recognizes the gentleman from Idaho, Mr. 
Labrador, for 5 minutes.
    Mr. Labrador. Mr. Chairman, I just wonder if before I have 
my time, if Mr. Shaw and Ms. Durden can actually answer the 
question, because that's one of the most ridiculous 
presentations I have ever----
    Mr. Johnson. Well, Mr. Labrador----
    Mr. Labrador. I'm sorry, but I think----
    Mr. Johnson. Mr. Labrador, I'm not going to stoop to the 
posture of----
    Mr. Labrador. Your time has expired.
    Mr. Johnson. But you cannot come here and insult another 
Member. I think that's against the rules.
    Mr. Labrador. I just believe that if you just called them 
out for coming out here and you said that they were----
    Mr. Johnson. If you have a question that you want to ask 
them, that's fine.
    Mr. Labrador. You know, sir, I will do it sir in the way 
that I will to do it. But I just think it's insulting----
    Mr. Johnson. But don't get them to answer my question and 
you not have----
    Mr. Goodlatte. The gentlemen will both suspend.
    Mr. Johnson [continuing]. And you not use your time.
    Mr. Goodlatte. The gentlemen will both suspend.
    Mr. Shaw, Ms. Durden, if you care to respond to the last 
statement/question made by the gentleman from Georgia, we will 
allow to you do so.
    Mr. Johnson. And, Mr. Chairman, if I might, I welcome their 
response, I just happened to run out of time. But because we 
are sticking to the time I don't want to give Mr. Labrador 2 
minutes of free time.
    Mr. Goodlatte. No, we're going to give Mr. Shaw and Ms. 
Durden the time, and then we'll go to Mr. Labrador. But----
    Mr. Johnson. Oh, okay, well, then, we can do it like that.
    Mr. Goodlatte. I thought you were completing a statement. 
Apparently you were completing a question. Either way, we'll 
let them comment on it.
    Mr. Johnson. That'll be fine.
    Ms. Durden. I would love to answer your question. We 
weren't brought here for any sympathy or anything. My reason 
for being here is to put a face to this. I don't think 
immigration talks about all the lady going to church and 
somebody says she looks like Hispanic so we're going to check 
her immigration status. It puts, I think, a face on it with my 
son that brought a lot of good things to the community he lived 
in. He took care of me, he took care of his friends and 
neighbors and everybody. And he was wiped out because the guy 
who killed him in 2008 wasn't deported, he wasn't deported 
after his first DUI or his second DUI, a career criminal.
    It's almost like if I sneak into a restaurant and I act a 
fool and they ask me to leave, oh, no. Or I just come back and 
they say, no, you're not allowed here anymore, we didn't invite 
you back here, you did something wrong, and then I go back and 
they say, well, okay you can stay until you tear up the place. 
And when it's all demolished we'll deal with you. That's how I 
feel.
    So for you to say that we were--you know, you questioned 
why we were brought here, to put a face to it. When I get 
married to a wonderful man that supported me, my son can't walk 
me down the aisle. I will never be a grandmother or a mother-
in-law. So that's why I'm here.
    Mr. Goodlatte. Thank you.
    Mr. Shaw, did you choose to say anything? 
    Mr. Shaw. Yeah, basically I didn't like the way you did 
that myself, you know, because you're almost putting like no 
value on my son, because when you said your sister was killed 
by a Black man, like that made everything that we have to say 
null and void, because it was a Black man and like we're 
picking on Latinos.
    But what you have to understand is that our kids were here, 
they were living here, and they were murdered by someone 
illegally in the country. And I came here to let people know 
that I don't have to say that everybody here is 11 million 
people or more aren't criminals. I mean, I'm here to say that 
you have people here in the country illegally that are 
criminals. You have people that were brought here by no fault 
of their own. My son was murdered by someone that was brought 
here at 4 years old. And just because someone was brought here 
by no fault of their own you guys act like that gives them some 
sort of cart blanche to do whatever they want to, you know, and 
that's not fair.
    If you're here illegally from day one, you cross that 
border, everything else is out the door, it's illegal. And for 
you to act like if you come into our country it's not a crime, 
that's insulting to all Americans. And to say that I came here 
for sympathy, you know, I don't need sympathy. I think about my 
son 24 hours a day and I'm sure you feel the same about your 
sister. And for you to try to make it seem like I was just 
brought here like some puppet to make people cry or make people 
feel sorry for me, that's not fair, that's not fair, because we 
love our kids.
    Like she was saying, my son wasn't bothering anybody. He 
was walking down the street, coming home from the mall. I'm 
sure like your kids probably do, go to the mall and enjoy life. 
My son wasn't bothering anybody, he was playing football, he 
wasn't into gangs, no gang databases, he'd never been arrested, 
never been suspended from school. He was three times MVP, 
player of the year, he was running track, he was getting ready 
to get a shot at going to the Olympics.
    You know, so for you to make it seem like our families 
aren't important and we're brought here like they brought us 
out here like we're puppets, you know, to make fun of us, 
that's insulting to me, you know. If you had a nonchalant 
attitude it's not fair.
    The same way with the attorney and the other lady on the 
end, same way, they never talk about the crimes and the 
criminals and the cemeteries full of dead people, you know. And 
they act like just because they're here to work, that that's 
just--that's some kind of honor. That's not an honor, you broke 
the law to come into this country. You brought your kids over 
here. That's equivalent to human trafficking. You brought an 
infant that had no control what they were doing to a foreign 
country illegally and then raised him like that, and then you 
want us to feel like it's our fault because their mom and dad 
are just here to work. Where is the criminal, where is the 
criminality for the----
    Mr. Goodlatte. Thank you, Mr. Shaw.
    Mr. Johnson. Mr. Chairman, if I might offer my apology to 
both witnesses if I offended you. It was not my intent to do 
that. And certainly I'm a Black guy. And I think the point that 
I was making with that was that I'm not turned against all 
Black people, thinking that all Black people are criminals. And 
I said that to demonstrate that point.
    But once again, I am deeply apologetic if I offended either 
one of you. And I thank you for taking your time and spending 
your resources at the call of this Committee to come here and 
testify. That's not your fault that you were called here. And 
so I appreciate both of you. Thank you.
    Mr. Goodlatte. The Chair now recognizes the gentleman from 
Idaho, Mr. Labrador, for 5 minutes.
    Mr. Labrador. Mr. Chairman, I just want to first thank Mr. 
Shaw and Ms. Durden for being here. I have five kids, and I 
can't even imagine what you have gone through.
    I want to thank Ms. Martinez for your words. And I think 
you and I--and, I'm sorry, I'm a little emotional because this 
is an important issue for America. And when I see the tragedy 
that happened to your family, but I also think about a broken 
immigration system that we're trying to fix, and for us to 
think that we cannot reach a comprehensive approach to 
immigration reform without local law enforcement participating 
in it, I think it's a mistake.
    And I know you and I, Ms. Martinez, want to reach a common 
agreement on what we need to do, and I think we have the same 
goal. But my problem is that I think it's unrealistic for you 
and Ms. Tumlin to think that we're going to have any kind of 
immigration reform without having some sort of participation 
from the local law enforcement, without giving Mr. Crane the 
tools that he needs to do his job.
    I have to be honest. I practiced immigration law for 15 
years, Mr. Crane, and I had no idea that you only had 5,000 
agents dealing with 40 million people. I mean, think about 
that. If you think about 5,000 agents dealing with 40 million 
people, that's why we have the problem that we have today, 
that's why we have so many people in the United States 
illegally.
    And for somebody to sit here and say that you cannot do 
your job, Mr. Babeu, Paul, my friend, that you cannot do your 
job because you don't understand immigration law, I found Ms. 
Lofgren's questioning a little bit interesting. I practiced law 
for 15 years. Without looking at my book, I don't think I could 
have answered the question that she asked you because it's been 
3 years since I've practiced immigration law and I don't 
remember the answer. But I think you would have been able to 
train your deputies and the people in your office to actually 
work on this issue.
    And I also believe that if you would have arrested a young 
man who claimed citizenship, I know you well enough that I 
think you would have said, let's get an attorney who represents 
you so we can determine if you are a U.S. citizen or not. I 
know, I'm speaking for you, but can you answer that question.
    Sheriff Babeu. Yes. Through the Chair and Mr. Labrador, 
likely that scenario would never play out. I can't even think 
of a time that we would proceed that far. We would call ICE. We 
have 500 Border Patrol agents assigned in our county. And the 
times that the only contact we would have is if there was 
probable cause and there was some reason why we in law 
enforcement are there speaking with somebody and then that 
issue came up. We're required under Arizona law to ask that 
question if we have a reasonable suspicion, not because of the 
color of their skin, not because of how they talk or how they 
sound.
    And when we get to that point, that's where, if it even is 
an issue, we use a lifeline, we call ICE. ICE gives us 
direction. And the direction, in answer to the question 
earlier, the direction that we've been given is that person 
says they've been here 5 years, treat them as any other 
citizen, and that's the end of business for us. We deal with 
what we have to deal with, whether it's a citation or contact 
or have a good day. That's it, that's what we're doing.
    Mr. Labrador. Mr. Crane, you're trying to do a job to 
protect our Nation, and I think a lot of the job that you do is 
trying to protect us not just from people that are here 
illegally, but from drug trafficking, from all these other 
different things. Why do you think that this bill would 
actually strengthen your ability to actually do your job? 
    Mr. Crane. Well, the first it does is it gives us some 
people to do the job with. I mean, that's probably the most 
important thing. I mean, one of the things that we're supposed 
to be doing is working every jail in the country, every prison 
in the country. We're supposed to be working with adult 
probation and parole to get convicted criminals that even slip 
through and go to prison and end up back on the street. I mean, 
we need the people do the job. You know, things like the 
detainers to make sure that our detainers are actually 
recognized by local law enforcement, that when put a detainer 
out there and it's ignored, then that bad guy ends up back on 
the street. So, I mean, there's just so many things about this 
bill that will help us do our jobs better.
    We have these two positions with two different arrest 
authorities. They have exactly the same training, but they have 
two different arrest authorities. So we end up in situations 
where we have two guys that need to make an arrest and they 
can't do it or they can't be assigned to a gang task force or 
something because they don't have those arrest authorities. It 
makes no sense. We're pulling our hair out, out in the field. 
We've asked ICE to make changes internally that would give 
those arrest authorities to all of our officers and they won't 
do it.
    So, I mean, there's a lot of things in this bill that will 
help us, and we're extremely appreciative to Congressman Gowdy 
and everyone that's worked with us to try to put some things in 
here that will get interior enforcement back on track.
    Mr. Labrador. Thank you.
    Ms. Tumlin and Ms. Martinez, I want to get immigration 
reform passed. I think it would behoove you to actually work 
with the local law enforcement to try to figure out how we can 
actually figure out a way to make something like this work, 
because there is no way that in the House of Representatives an 
immigration reform bill passes without actually having the 
assurance that we're going to feel comfortable that what 
happened to Ms. Durden and Mr. Shaw will not happen again. 
Thank you very much.
    Mr. Goodlatte. Thank the gentlemen. The time of the 
gentlemen has expired.
    The Chair recognizes the gentleman from Puerto Rico, Mr. 
Pierluisi, for 5 minutes.
    Mr. Pierluisi. Thank you, Mr. Chairman.
    Good afternoon. Let me start by restating my support for 
comprehensive immigration reform as the best course of action 
for Congress and America to seeking to fix our broken 
immigration system. We need a commonsense reform that will meet 
our Nation's needs in the 21st century and it must hold true to 
our American values.
    Real reform must take into account that the challenges that 
our immigration system faces today are multifaceted. They are 
not situations that can be dealt with through isolated 
initiatives that only address one aspect or another. That 
approach will not result in a better America and will squander 
the historic window of opportunity that presently exists while 
true bipartisan efforts are on their way in both the House and 
the Senate to find comprehensive solutions to these critical 
issues.
    Unfortunately, the enforcement-only approach offered by the 
SAFE Act falls short of accomplishing what America needs and 
wants us to accomplish, which is reform that works for our 
economy, that strengthens and secures our borders and our 
interior, that helps America attract needed talents and 
expertise, that allows undocumented immigrants already in 
America an opportunity to legalize their status and apply for 
citizenship, and that improves the efficiency and fairness of 
our legal immigration system to vastly reduce illegal 
immigration.
    While I understand and share the majority's desire to 
improve our Nation's security, I don't believe that the 
approach of the SAFE Act, which would combine the 
criminalization of undocumented immigrants with the delegation 
of authority to States and localities to enact and enforce 
their own immigration laws, would accomplish that goal. It is 
very risky, it's a very risky approach to a complicated problem 
and could cause great harm to communities everywhere by opening 
the doors to racial profiling, wrongful detention, and the 
criminalization of otherwise innocent behavior.
    And I, for one, I am very sorry for the pain that you have 
suffered, Mr. Shaw and Ms. Durden, I mean, and I tell you, I 
lost my own brother, he was a victim of a carjacking in Puerto 
Rico. So I know your pain and I relate to that.
    But we're seeking a comprehensive solution. We want to 
address all aspects of this, not only the pain of victims of 
any crime, including crimes committed by undocumented 
immigrants, but also the pain that millions of immigrants are 
suffering on a daily basis while being in the shadows because 
the system is not working.
    And of course I join Mr. Labrador in thinking and 
supporting that we have additional resources at the Federal 
level to enforce our immigration laws looking forward, but of 
course that makes all the sense in the world.
    Now, my question is for Ms. Clarissa Martinez-De-Castro 
from the National Council of La Raza. Ms. Castro, in your 
testimony you mentioned the case of Eduardo Caraballo, a U.S. 
citizen born in Puerto Rico, where I come from, and I also 
relate to this on a personal basis, who was arrested by Chicago 
police and held for more than 3 days in the custody of Federal 
agents on suspicion of being undocumented and was threatened 
with deportation because of his Mexican appearance.
    Do you believe that if States and localities are allowed to 
enact their own immigration laws, including civil and criminal 
penalties, and then given authority to enforce those laws, 
situations such as the one impacting U.S. citizens like Mr. 
Caraballo, which could impact me as well because of my accent 
and my Mexican appearance, will become more prevalent?
    Ms. Martinez-De-Castro. Without a doubt. And it doesn't 
have anything to do with being disparaging to law enforcement, 
which I would like to clarify and speak directly to otherwise 
I'll get in trouble when I get home, because I have members of 
law enforcement in my family.
    What we did was actually cite facts and findings of 
investigations. There are bad apples everywhere. And I think 
that's why there are voices in the law enforcement community 
that are concerned about how these laws will interact with a 
number of things.
    The other thing that I would like to say is that there 
seems to be an inherent assumption somewhere here that there's 
false lines dividing the opinions in this table. And as long as 
we keep having that kind of conversation we're never going to 
get to the finish line here. To present my organization as 
somebody who doesn't think law enforcement has a role in this 
debate is simply false. What we believe, again, is that there 
needs to be a balance. And since there's been a lot of talk 
about public safety, let me just say that I do hope that when 
we talk about public safety and the public trust we are making 
sure that the Latino community, 75 percent of whom are U.S. 
citizens, are counted in that public trust, because oftentimes 
some of the provisions in this debate and the conversations 
that I hear could lead someone to believe that Latino citizens 
or legal permanent residents are not considered part of that 
American public or that their trust is irrelevant.
    And I do think here, like I said, there is too much tragedy 
in this issue. We can continue to talk on top of each other, 
around each other, misrepresent what we say. That's not going 
to help us. I am sure that Ms. Durden can identify with the 
tragedy of mothers who experience the loss of their sons 
because they were beaten to death just because somebody thought 
they were Mexican. Those tragedies are unacceptable. We need to 
address this problem head on.
    Mr. Pierluisi. Thank you.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Georgia, Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I have a district that has been very much affected by the 
discussions going on. I appreciate, Ms. Martinez, your 
comments.
    I take great offense at yours Ms. Tumlin. I'm not sure why 
you were here except to bring forth the point of making 
Georgia, of which I was part of that State legislature, and 
Arizona and others who attempted to deal with an issue in their 
State, who attempted to do so in a way that may or may not to 
your opinion or to others been right, and some part which was 
struck or put on hold by the court, but the vast majority of 
the law was upheld.
    I think you're right, Ms. Martinez, to draw lines are not 
good. But to walk into here and to take account officers, to 
take account me personally or others in the legislature who 
honestly tried to work through these issues, maybe not to your 
satisfaction, but did so at the request of those who voted for 
us, the same ones who sent me here, is not a good thing, it is 
not helpful.
    Because as one who is trying to work through this in a very 
conservative district, one in which we struggle deeply with 
these issues, in which there is a large Hispanic presence, that 
has made our district wonderful from a legal perspective and 
made a struggle from those who are there not legally. And these 
are issues that we have to deal with.
    But to simply categorize it in the way it came across, and 
I was watching, is not and will not be a helpful tool as we 
move forward, especially for those of us who are trying through 
sometimes great difficulty to find an answer for this. To 
others, from the gentleman from South Carolina and from Idaho 
and others across this table who have tried our best to look at 
this, to do so does not do any good.
    And especially from those, as I appreciate, Ms. Martinez, 
those with friends and family in law enforcement, my father was 
a State trooper for 31 years. And to see what he would go 
through and these others go through knowing that in my county, 
Hall County, was one of the first 287(g) counties.
    I have also practiced defense work, and I have my issues, 
and they hold accountable, we hold each other accountable. But 
to simply say the one argument that never came from me, from my 
sheriffs who I have great respect for, was that you were 
basically too dumb to enforce the law. It may be I disagree 
with you on how you made this stop or how you did this, but the 
fact that you were not bright enough to enforce it, no.
    And to have law school questions, I appreciate and I 
respect greatly my gentlelady from across the aisle from 
California. She can outrun me any day on most legal aspects. 
But that's a law school question. What these gentlemen all deal 
with is real side of the road kind of stuff.
    Mr. Crane, I want to focus on my issue in Georgia. Over 50 
illegal aliens were released by ICE under the guise of 
sequestration. In March I wrote to DHS and ICE and requested 
basic information about the releases. For example, I asked how 
many illegal aliens were released in Georgia and how many have 
criminal conviction and what are the specific crimes committed 
by illegal aliens released in Georgia. To date, I've never got 
an answer.
    I'm an original cosponsor of this legislation and strongly 
the needs it fixes to our current law in conjunction with other 
aspects that we need to deal with, with immigration, not just 
one, but a lot of others. However, as we provide for additional 
ICE detention officers and agents and prosecutors, shouldn't we 
also take steps to ensure that the national security and public 
safety goals of this bill aren't thwarted by what appears to be 
politically motivated releases of detained illegal aliens, 
including criminal aliens.
    Mr. Crane, I would like to hear from you on your thoughts 
on the seriousness of this situation and what we can do to 
prevent it from occurring in the future.
    Mr. Crane. Well, I think it's extremely serious, whether 
it's in Arizona or it's Georgia, when we're cutting people to 
the streets that are criminals. We're not letting law 
enforcement know about it, we're not letting them know why 
we're doing what we're doing, I mean, I think it's extremely 
dangerous. And I think there's definitely, I can tell you as an 
officer, those things never needed to happen. Sequestration or 
no sequestration, we have ways of trimming our numbers back 
without making mass releases like that.
    So it's completely unacceptable, it's a public safety 
threat. Everyone up at DHS should be held accountable for. 
Senator McCain himself, from the gang of eight, said Secretary 
Napolitano is responsible here, somebody needs to be 
disciplined for that, and I agree.
    The things that we have to do is we have to cut back 
whenever possible on the discretion of political appointees, 
being the Secretary of DHS or the Director of ICE, we have to 
cut back on their discretion. Congress has to codify this, they 
have to put it in writing how these folks are going to behave.
    Mr. Collins. Well, I think that is something that we have 
got to look at. And as my time goes out on this I just want to 
say, is someone looking for an answer here? Let's deal with 
answers, let's don't deal with disparaging comments.
    Mr. Chairman, I yield.
    Mr. Goodlatte. Thank the gentleman.
    We have----
    Ms. Tumlin. Mr. Chairman, I'd like to ask for the 
opportunity to respond.
    Mr. Goodlatte. If you would suspend for just a moment. We 
have votes on the floor that are 5 minutes into, we have 10 
minutes remaining. The gentleman from Florida, Mr. Garcia, is 
next, and he'll be recognized momentarily. The gentleman from 
Iowa, if he chooses to, can take the Chair and ask his 
questions, but he'll be cutting really close on the votes. And 
we will then return after the votes and we hope our witnesses 
can remain because there will be a few other Members, including 
myself, Mr. DeSantis.
    Have you asked questions?
    Mr. Bachus. Yes. Ms. Tumlin didn't get a chance to respond.
    Mr. Goodlatte. No, I understand, I understand, but we're 
running really close on time.
    Mr. Bachus. I just think if you're going to let other 
witnesses, she ought to be given a minute. Because, I mean, 
despite the fact that----
    Mr. Goodlatte. If the gentleman would suspend, I'm going to 
do that, but I don't have very much time to accomplish it and 
get both Mr. Garcia and Mister--Mr. King said he's going to 
come back. Okay. So first we're going to go to Ms. Tumlin, she 
can respond, and then we're going to go to Mr. Garcia, and we 
will then come back after votes.
    Mr. Garcia. Mr. Chairman, I think it makes sense that we 
just go back. And I'd rather Ms. Tumlin speak to people when 
they're here. It sort of doesn't make sense that she speak. I 
know of her good work and her organization's incredible work. I 
know of Clarissa's good work. And maybe we should all be here 
to listen as opposed to letting her speak into the nothingness.
    Mr. Goodlatte. Well, I understand, but many Members may not 
come back after. So I don't know if there will be more Members 
then than there are now and I'll give her--
    Mr. Garcia. Go ahead, Ms. Tumlin. I'm sorry.
    Ms. Tumlin. Okay. Thank you. And I know you have to vote to 
get to.
    I think it is really important how we engage in this 
discussion and the level of dialogue we use. I want to be 
really clear, at no point did I say that I believe law 
enforcement is too dumb to enforce immigration law. So let's be 
clear. In my world I have to deal with facts and evidence. I 
don't get extra credit for representing undocumented 
immigrants, no one gives me an extra chance. I need to deal 
with facts and evidence.
    The facts and evidence show from court findings from the 
Department of Justice that under the 287(g) program in its 
prior incarnation, the way it operates now, there are patterns 
of unconstitutional violations. That's what we're pointing out 
today. And as an expert in immigration law when I read the 174 
pages of this bill I have serious fears about the expansion of 
that authority and what it would lead to and what it would mean 
on human terms.
    And also to the parents who lost their children, for 
everyone in this room it was hard to listen to. I am a mother. 
Of course I empathize with you. I cannot begin to understand. 
Because I'm a mother, I know I can't understand what happened 
to you. But I'm a proud American, and one of the things that I 
am proud of is that we believe in equality and equal treatment 
under the law. And this bill does not do that. That is why I'm 
concerned.
    We believe that you do not get held without probable cause 
and we believe that no group, whether they are noncitizens or 
whatever country they came from, is stripped of those 
constitutional values. I urge us to look at what this bill does 
to remove equality under the law for a specific group. And I 
appreciate the indulgence of the Chairman's time.
    Mr. Goodlatte. I thank the gentlewoman.
    Mr. Garcia. I'll go ahead and take my 5 minutes, there is 
enough time.
    Mr. Goodlatte. Okay. The Chair recognizes the gentleman 
from Florida for 5 minutes.
    Mr. Garcia. I've seen the law enforcement persons here, and 
I, unlike others here, I have spent a great deal of my time 
working on immigration. And one of the great prides that I find 
in working with law enforcement is that law enforcement doesn't 
want additional responsibilities, that law enforcement is 
overwhelmed with responsibility already, very sacred trust that 
they have with the local communities, with those people that 
get hurt, in particular to get witnesses of serious crime. And 
so I worry about how we're selling this here.
    Mr. Crane has come here time and time and time again and 
spoken against immigration reform. And, Mr. Chairman, I have 
the deepest respect for you and for trying to get this through, 
but this isn't the debate we should be having today. We are 
close to solving a national problem that could have solved a 
lot of problems we've seen here today. And it is important that 
we realize that. Because we can pull back, fear, fear mongering 
and hate and anger are underlying a lot of what goes on today 
here. And clearly we've come a long way, and it's very 
important to go that way.
    I want to bring this question to either Clarissa, Ms. 
Martinez, or Ms. Tumlin. I happen to know for a fact because 
I've worked with you both in the past or your organizations 
that you have dealt with law enforcement. Can you speak to that 
really quickly? 
    Ms. Tumlin. Yes, and I think we'll both address that 
quickly. Absolutely we speak with law enforcement regularly. We 
talk to police chiefs, we talk to sheriffs about this very 
issue. And what they have told us is exactly what the 
Congressman is pointing out. We want to do our jobs. We need 
the community to have our back, not to be terrified of us. We 
want to make choices about how to prioritize, how to enforce 
law and keep our communities safe. We've heard that from 
sheriff after sheriff across the country.
    Ms. Martinez-De-Castro. Yes, and I spoke about this at the 
beginning. There are differences of opinions, but I think that 
there is a shared concern in the law enforcement community 
about how this interaction takes place, what it may do for 
people's willingness to report crime, whether a crime is being 
committed against them or whether they are witness to one.
    And I think as we've heard from several Members, a very 
recent study corroborates previous studies that say that that 
is not unique to people who are undocumented, it is also a fear 
that is now taking hold of Latinos who are U.S. citizens.
    Again, this is about balance. I feel that a lot of the 
discussion here, there's almost like aggressive agreement on 
some things and then we're trying to focus on the things we 
don't agree on. We cannot continue to tear each other apart and 
move us away from actually--we're much closer to a consensus 
that we think.
    And the American public has a larger consensus on this 
issue that Congress gives it credit for, and I do hope, as is 
usually the case, that leaders follow the people, that we can 
get there soon. We have a real opportunity to do it this year. 
The solution does involve law enforcement. But, again, we've 
been doing enforcement for 20 years. We can say we've learned 
lessons and we can do it better, and I do think enforcement 
needs to be smarter and more accountable based on the lessons 
we have learned over that regime in the last 20 years. But I 
think we also have to admit that the solution we are after is 
not going to come through that one piece alone.
    Mr. Garcia. Mr. Chairman, I yield back the balance of my 
time. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman for a minute 
and a half of additional time----
    Mr. Conyers. Mr. Chairman?
    Mr. Goodlatte [continuing]. For Members to get to the 
floor.
    Mr. Conyers. Mr. Chairman?
    Mr. Goodlatte. Yes?
    Mr. Conyers. Could I inquire as to whether there's any 
intention that this measure be marked up next week?
    Mr. Goodlatte. We are working very steadily toward making 
an announcement on that very soon.
    Mr. Conyers. Could I caution you that, for one, I'd like to 
review this record and I'd like to see the transcript before we 
move to that.
    Mr. Goodlatte. I know the gentleman has been here for most 
of the hearing and has had the benefit of that, and we want to 
afford him of the opportunity to hear as much information as 
possible. But we also recognize that there is a lot of work 
going on in both the House and the Senate and this Committee 
needs to do its work as well. So we'll have further discussion 
about that.
    Right now we do have a vote pending on the floor with very 
little time for the Members to get there. So the Committee will 
stand in recess. And we ask the witnesses to stay because we do 
have at least two or three more Members who would like to ask 
you questions, including myself. And we thank for your patience 
and forbearance.
    The Committee will stand in recess.
    [Recess.]
    Mr. King [presiding]. This Committee will come to order. I 
want to thank the witnesses for taking time out of your lives 
to be here to speak up for American values on whichever side of 
the argument that you might be. And I appreciate some of the 
tone and the demeanor that I have seen among the witnesses here 
just recently as well. So a lot of the Members have elected to 
move on to other duties. And the Chair will recognize himself 
for 5 minutes.
    As I listened to the testimony, I reflected on a few 
things. A hearing here before the Judiciary Committee, as I 
began--and I will direct my first question to Mr. Crane so that 
he can be ready--a hearing we had some weeks ago before this 
Judiciary Committee, I had a self-professed illegal alien 
approach me and lobby me on immigration policy. I came on 
inside the chambers and there was an introduction of people 
that quite likely were unlawfully present in the United States.
    I would first turn to Mr. Crane and say, was there anything 
you could have done to bring lawfulness to that behavior?
    Mr. Crane. No, sir. I think I probably would have lost my 
job had I even spoken to anyone. In fact, the Senate hearing 
that I did where there was an illegal alien present, I sent an 
email to the director of ICE asking him for guidance on how, as 
an officer, I should respond in that situation, and they 
wouldn't even respond to me. But judging from things that are 
happening in the field right now, you know, if that person was 
in jail, I couldn't do anything to him right now, let alone in 
Congress.
    Mr. King. But the reason for that wouldn't conform with 
U.S. law, would it?
    Mr. Crane. I don't believe so. No, sir.
    Mr. King. Because the U.S. law directs that they be placed 
into deportation proceedings?
    Mr. Crane. Yes, sir.
    Mr. King. And so what would be the thing that prevents you 
from enforcing U.S. law?
    Mr. Crane. It would be the policies of the Obama 
administration; specifically, the prosecutorial discretion 
memorandum in this case as well as other policies, such as our 
detainer policies and our guidance for making arrests in the 
field.
    Mr. King. Don't I remember in one of those memorandum that 
there were, I believe, seven references to on an individual 
basis only and references to prosecutorial discretion? Are you 
familiar with that memo that I'm referring to and the language?
    Mr. Crane. I don't remember that language specifically, but 
I know there were about 18 different scenarios or something. 
And that at the bottom it says, this is not an exhaustive list 
of the times that you have to exercise this type of discretion. 
So like I've said many times, we're clueless out in the field 
with regard to how to enforce. At this point, most officers and 
agents just try to keep their heads down and stay out of 
trouble. Staying out of trouble, meaning don't arrest anyone.
    Mr. King. Do they, though, reference an individual basis 
only on prosecutorial discretion?
    Mr. Crane. I'm sorry?
    Mr. King. Is part of the directive that you have from the 
Administration to utilize prosecutorial discretion on an 
individual basis?
    Mr. Crane. Yes.
    Mr. King. But aren't we dealing with this essentially as 
full classes of people?
    Mr. Crane. I think it works both ways from the 
Administration policies, that they tell us to do it on an 
individual basis but at the same time they give us orders not 
to arrest or detain entire classes of individuals.
    Mr. King. So the memo might say individual basis 
prosecutorial discretion, but it's applied on a group basis and 
you don't have the discretion to apply the law?
    Mr. Crane. That's exactly right. And prosecutorial 
discretion is not discretion, they're orders not to. We have no 
discretion. We're being ordered not to arrest certain 
individuals or groups.
    Mr. King. Some of that's the basis of the case of Crane v. 
Napolitano.
    Mr. Crane. Yes, sir.
    Mr. King. And can you inform the Committee of the status of 
that particular--before you do that, I do have this decision 
from Judge Reed O'Connor from the Northern District of Texas. 
And I'd ask unanimous consent to introduce this decision into 
the record.
    Hearing no objection, it will be introduced into the 
record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. King. And I'd ask you then, Mr. Crane, if you could 
speak to the Crane v. Napolitano case as far as the decision so 
far and the impending decisions that we think will be made.
    Mr. Crane. Just basically that the case is not just about 
DACA. It's also about the prosecutorial discretion memorandum. 
It's been characterized incorrectly, I think, in the media, as 
well as in some of the meetings that we have had here. So 
basically it impacts almost every person that we come in 
contact with as ICE agents, that we're being told not to arrest 
these individuals. The judge's preliminary decision has been 
that we are correct in our legal position, that it's illegal 
for the Administration, political appointees to tell us to not 
to follow the laws enacted by Congress. And the case actually 
hinges at this point not on a critical point of law, but 
whether or not we as Federal employees can sue the Federal 
Government.
    Mr. King. Now, if this Congress should pass legislation 
that directs the executive branch to enforce a law--for 
example, local law enforcement enforce the law--if they direct 
that those persons that then are interdicted be placed into 
deportation proceedings, whatever might come out of this 
Committee, whatever might come out of this Congress, whatever 
might be agreed to in a conference committee between the House 
and the Senate, can you imagine how the Congress could change 
the position of the President to defy immigration law? Would 
new law be treated the same? Or what would be the distinction 
that you've see between this bill that's before us today and 
the actual statute that the President has defied?
    Mr. Crane. I'm sorry, sir. I don't completely understand.
    Mr. King. If the President won't enforce existing law, why 
would we expect him to enforce new law?
    Mr. Crane. We absolutely don't. And, you know, we have been 
very open about this in the past. We had problems with this 
under previous Republican administrations as well. I think it's 
been especially egregious under this one. But it's something 
that has to be addressed by Congress. We can't depend on our 
next President enforcing a law instead of creating a law. We 
have to create laws that are going to make the executive do 
their job.
    Mr. King. I want to thank all the witnesses for your 
testimony. It's been compelling. And I want to let especially 
those most personal of experiences that you have relived the 
pain, I want to thank you especially for that. And I will tell 
you that the emotion within all of us, on whichever side of the 
aisle we're on, our hearts and our prayers are with you. And I 
believe we have an obligation as a Nation to square away the 
rule of law, protect the American people.
    And I ask the question of this inertia for amnesty, why? 
Why would we do this? How would Americans benefit from this? We 
should have an immigration policy that is designed to enhance 
the economic, the social, and the cultural well-being of the 
United States of America.
    This concludes today's hearing. Thank you all again, the 
witnesses, for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    This hearing is now adjourned.
    [Whereupon, at 6:25 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
